<html>
<title> - GREAT BASIN THREATS</title>
<body><pre>[Senate Hearing 110-273]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-273
 
                          GREAT BASIN THREATS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   TO

            CONSIDER THE MAJOR ENVIRONMENTAL THREATS TO THE 
                    GREAT BASIN IN THE 21ST CENTURY

                               __________

                    LAS VEGAS, NV, OCTOBER 11, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources


               COMMITTEE ON ENERGY AND NATURAL RESOURCES



                     U.S. GOVERNMENT PRINTING OFFICE

40-582 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Belnap, Jayne, Research Ecologist, Geological Survey, Department 
  of the Interior................................................     5
Mulroy, Patricia, General Manager, Southern Nevada Water 
  Authority, Las Vegas, NV.......................................    29
Nichols, Dan, Rancher and County Commissioner, Harney County, OR.    24
Pellant, Mike, Great Basin Restoration Initiative Coordinator, 
  Bureau of Land Management, Department of the Interior..........    12
Reid, Hon. Harry, U.S. Senator From Nevada.......................     2
Spratling, Boyd, President, Nevada Cattlemen's Association, Elko, 
  NV.............................................................    34
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                                APPENDIX

Responses to additional questions................................    45


                          GREAT BASIN THREATS

                              ----------                              


                       THURSDAY, OCTOBER 11, 2007

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                     Las Vegas, NV.
    The subcommittee met, pursuant to notice, at 10 a.m., at 
Thomas & Mack Moot Court, William S. Boyd School of Law, 
University of Nevada, Las Vegas, Hon. Ron Wyden presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The Subcommittee on Public Lands and 
Forests, the Senate Committee on Energy and Natural Resources 
will come to order. This has been a busy year for our 
subcommittee.
    We have spent considerable time, with strong support of the 
Senate majority leader, working to reauthorize Securing Rural 
Schools and the Community Self Determination Act, which is a 
lifeline for rural communities.
    It would also include, as a result of the work of the 
Senate majority leader, major expansion of the health program, 
the payment in lieu of the taxes program, which we all know to 
be so important to westerners.
    We've also spent a considerable amount of time working to 
protect wilderness in our special places, and when that 
legislation is enacted, it will be the biggest expansion of 
wilderness protection in many years. We've also spent a 
considerable amount of effort looking at how to reduce fire 
risks, particularly by thinning out hundreds of thousands of 
acres of choked, overstocked timber stands.
    Today, at the request of the Senate majority leader, we are 
here to consider the major environmental threats to the Great 
Basin in the 21st Century.
    These include invasive species, wildfire, drought and 
global warming.
    The Great Basin is composed of most of Nevada and portions 
of Oregon, California, Utah and Idaho.
    The Great Basin is a place where the combination of 
invasive species, wildfire, drought and global warming has 
created a vortex of ecological deterioration.
    It's my view that our generation has a choice. Sit around 
and tolerate ecological collapse of a great ecosystem, or roll 
up our sleeves and go to work to protect the Basin's special 
way of life. To get started in that effort, we're fortunate to 
have the Senate majority leader here to lead us in that cause.
    The Senate majority leader has been a good friend of mine 
for more than a quarter of a century, and he possesses a trait 
that we westerners value very much. When he says something you 
can count on it. He has made it clear to me that working to 
protect the Great Basin is a special priority of his, and I am 
glad to join him in this effort.
    Now, before we call up our Senate majority leader I also 
want to say a big thanks to a number of those who have helped 
make this possible.
    Today we have David Ashly, the president of the university, 
with us; and we welcome you, Mr. Ashly.
    We have Dean John White of the law school, and I will tell 
you, Dean, I am a lawyer really in name only. Senator Reid, of 
course, is a very distinguished lawyer, but I've noted that 
your school is already one of the top schools in the country, 
and we commend you for it.
    Mrs. Mack, I think you're going to get a more formal thank 
you from the Senate majority leader, but we are very grateful 
to you for your contribution to the State and the community, 
and I gather we're having somewhat of a christening out here 
today with this morning's Senate appeal hearing.
    Our first panel of witnesses will include Mike Pellant, the 
coordinator for the Bureau of Land Management, Great Basin 
Restoration Initiative and Doctor Jayne Belnap, research 
ecologist with the US Geological Survey.
    On the second panel we will have the Honorable Dan Nichols, 
County Commissioner for Harney County in Oregon.
    We're thrilled to have Dan here. He always comes to my town 
meetings when I have them around the State, and he is a great 
advocate for rural communities.
    Patricia Mulroy, general manager of the Southern Nevada 
Water Authority will be with us on the second panel, and Doctor 
Boyd Spratling, President of the Nevada Cattlemen's 
Association.
    So let us go forward. We're going to have a busy day.
    Our first witness will be the distinguished Senate majority 
leader, who has been involved in a host of major environmental 
causes.
    I particularly appreciate his leadership and the effort to 
address global climate change, and it's my hope that the Senate 
majority leader, after making a statement, will come and join 
the panel for whatever time his schedule allows. Majority 
leader, welcome.

          STATEMENT OF HON. HARRY REID, U.S. SENATOR 
                          FROM NEVADA

    Senator Reid. Mr. Chairman, thank you very much.
    I must underscore the statement about our relationship.
    We have served together in the House; of course, we now 
serve together in the Senate. Not only are you a member of this 
prestigious committee, but you're a member of the finance 
committee, and Ron is a man who doesn't take credit for the 
things that he does, so I'll give him a little credit for a 
number of things.
    Ron is a real thinker. He came to the Congress having been 
an attorney for the great campus. One of the things he's done 
so well during his many years in Congress is make sure that 
people in their golden years are treated as if they were gold.
    Also, he's one of the people that understand that 
legislation is a compromise, it takes a long time to get things 
done, and one of the hallmarks of Ron Wyden is that he has done 
a lot of things, and one of the things that he's now way out in 
front of everyone--I shouldn't say everyone that's here, but at 
least members sitting on the finance committee, where it will 
happen. He is on health care, he has a bipartisan piece of 
legislation that's receiving rave reviews around the country, 
and so, Ron, it's a pleasure to have you here. This committee 
is so important to our country.
    This subcommittee is so important to the State of Nevada, 
we have a situation where we have 87 percent of the land is 
owned by the Federal Government. Forty percent of our land is 
restricted military air space, so the Federal Government is 
involved in virtually everything that we do, and so your 
holding this hearing today is extremely important.
    I do want to also acknowledge Joyce Mack.
    The Mack family, together with the Thomas family, have 
done--I don't know anyone that's comparable to having helped 
education as much as they.
    In addition to their big hearts and giving parts of their 
personal fortune to education, they've been involved in many 
other things, and I think their story is a story of what 
America is all about. Both the Thomas and Mack families 
basically had nothing, and with the American dream they 
obtained something, but have given much of it away.
    Joyce is here. She's a dear friend. I so miss her wonderful 
husband and his political advice, which he loved to give, and 
his favorite person in politics, at least from my perspective, 
was Scoop Jackson.
    He was--Scoop Jackson, he knew Nevada as well as he knew 
every State except for the State of Washington where he came 
from, and one reason is because of the relationship that he had 
with Sherry Mack.
    So thank you very much, Joyce, for being here.
    The official title of this hearing is to consider the major 
environmental threats to the Great Basin and in the century 
we're now in, the 21st century.
    The witnesses have been selected and requested to focus 
mainly on the dangerous impact of global warming, which is, as 
the chairman mentioned, increasing wildlife and species 
endangerment, drought, heat waves, and making water supplies 
scarce, and how these adverse impacts are changing life, and 
how adapting to them makes everything increasingly costly. 
We've not asked the witness to discuss solutions to the global 
warming. That will come at a later time in your committee.
    We expect and hope that you will in your role at this 
hearing, provide testimony that will serve as a platform to 
show that renewable energy is a better path than the more 
conventional means that we've been using for so long.
    It's certainly clear that wildfire, invasive species, 
Cheatgrass and drought are wreaking havoc on the Great Basin. 
Temperatures in the west have been steadily rising for the past 
fifty years, but very much so in the past decade.
    A report from the world's best climatologists shows that 
summer temperatures in the west could increase by up to nine 
degrees by mid-century. Hotter temperatures will make the 
southwestern States even warmer and more arid, even when 
conditions are compared to those we're experiencing today. The 
warming will make droughts, I'm sorry to say, longer and more 
severe. Invasive plants like Cheatgrass thrive in the hotter 
and drier conditions that will come with climate change.
    We're all dealing with them here. You're going to be 
hearing from a cowboy, a cattleman, a rancher this afternoon, 
this morning, I should say, and you will find that they're 
really concerned about what's happening. The combination of 
Cheatgrass and other invasive species, and what they're doing 
with respect to fire, is drastically changing the Basin's 
ecosystems. Wildfires affect the livelihood of ranchers and the 
safety of many, many Nevadans.
    Since 1999, wildfires have burned more than a million acres 
of land habitat each year. In just this past summer we shared a 
devastating fire in the State of Oregon. It took several weeks 
to burn out. To stop global warming we have to attack the 
primary cause: Greenhouse gas emissions from burning fossil 
fuels. We have a moral obligation to current and future 
generations to do that. Burning dirty, polluting coal, using 
outdated technology is a way to make wildfires more intense and 
continue drying out the Southwest. I don't know how anybody 
could choose a path of more coal in Nevada when we're so close 
to a renewable energy revolution.
    Nevada and other western States have tens of thousands of 
megawatts of geothermal, solar, wind, biomass potential reaches 
all over America, but especially here in Nevada, so we need to 
redevelop these new, clean resources, and we need to do it 
quickly. It's very important.
     I reviewed, Mr. Chairman, statements by the witnesses who 
will come here today, and they, really, I think, lay this out 
so well. I do want to single out one of the witnesses, and 
that's Patricia Mulroy.
    As I mentioned to you in the holding room that when history 
is written about Nevada, a good part of the history of modern 
times, it will be talking about Patricia Mulroy. We've had some 
real challenges here in Las Vegas with our growth and the 
scarcity of water and the allocation that Nevada was given out 
of the Colorado River.
    Most of it was given to other States, but what she's done 
with conservation is so staggeringly important to what we may 
have been able to accomplish here. Not only has she done what 
she could with the water out of the Colorado, but--and in that 
has done remarkable things with water bank, people used to just 
talk about that she's actually done that, especially with the 
State of Arizona, but not only that, she's searching for other 
sources of water. Senator Ensign and I have worked closely with 
her to make sure we're going to be able to do everything 
legislatively that's necessary to accomplish that.
    So I'm glad this hearing will explore and document the 
threats to the Great Basin which is critical to the people who 
live with these threats here because they're transforming the 
world around us and are very costly in many dangerous ways, so 
I look forward to being here while you listen to these 
witnesses.
    I say to everyone here, we have staff here from Washington, 
and Senator Wyden's staff--the purpose of these field hearings 
is to learn what's going on around the rest of the country and 
to take that information back to the subcommittee, and, of 
course, to the full committee, and ultimately Congress to see 
what can be done about the issues that are certainly brought up 
here in Las Vegas.
    Thank you, Mr. Chairman.
    Senator Wyden. Mr. Majority Leader, I so appreciate your 
delivering this wake-up call, because by throwing the weight of 
your office behind this cause, and this involves, I think you 
folks know, this involves five States, it's not just Nevada, 
but it's Oregon, California, Utah and Idaho and I think we have 
had a chance now to mobilize at a critical time an effort to 
protect this resource.
    So I so appreciate what you have done by bringing us here, 
by asking us to come to this field hearing, and I look forward 
to working with you as you lead the effort to protect the 
Basin.
    I know you've got a tight schedule, with many demands on 
you, but I hope that you will be able to sit with the panel and 
ask whatever questions you wish of your constituents. Just now 
I not only appreciate your leadership, but our friendship over 
so many years.
    Senator Reid. Mr. Chairman, I appreciate your invitation to 
sit up here with you, but this is your subcommittee. I will sit 
here during the hearing and listen, and I would feel 
uncomfortable asking questions.
    Senator Wyden. If it's not breaking any kind of Senate 
procedure, we have had Senators sit with us, and whatever is 
your pleasure.
    Senator Reid. Mr. Chairman, I have four children that I 
brag about all of the time, four boys now. My youngest boy was 
an athlete, and he--as you know, I've told you many times, 
played on three national championship soccer teams at the 
University of Virginia. So his mother and I bought him a World 
Cup shirt. He wouldn't wear it because he wasn't part of the 
World Cup.
    He went to the World Cup and he wouldn't wear that shirt 
because he wasn't playing a World Cup team.
    So since I'm not part of this committee, I'm going to sit 
back here and partake of the witnesses.
    Thank you very much.
    Senator Wyden. I thank you.
    Let us call our first panel, then, Mike Pellant and Doctor 
Jayne Belnap.
    Welcome to both of you, we'll make your prepared statements 
a part of the hearing record and I think if you can take 5 
minutes or thereabouts to summarize your principal views and 
that would save some time for questions, and welcome. Thank you 
for your leadership.
    Doctor Belnap.

   STATEMENT OF JAYNE BELNAP, RESEARCH ECOLOGIST, GEOLOGICAL 
               SURVEY, DEPARTMENT OF THE INTERIOR

    Ms. Belnap. Good morning, Chairman Wyden.
    Thank you for the opportunity to appear here today to 
discuss how climate change models can help us better understand 
the interaction between climate change and environmental 
threats facing the Great Basin and the Colorado Plateau Region.
    I'm addressing both regions in my remarks as they share 
ecosystems, resources and future concerns including the 
Colorado River. Climate models are based on well-established 
physical principals to which are added approximations and 
physical processes at the appropriate scale for the models 
being constructed. Many factors go into these models which can 
be seen on the screen, which is why they are so complicated.
    The most recent generation of global circulation models 
couple data from the atmosphere, oceans and land. The 
atmospheric data describes the transfer of heat, radiation and 
water vapor in the process of cloud development and 
precipitation. Oceanic factors include sea surface 
temperatures, sea ice and ocean currents.
    Land factors include vegetative cover, soil type and 
moisture, water storage and weather precipitation in forms of 
snow or rain. Models continue to evolve as research identifies 
the new factors that influence climate, such as methane, 
nitrous oxide, dust, soot, terrestrial carbon sources and 
vegetation dynamics. There are three fundamental ways to change 
the radiation balance of the earth. One is to change the 
incoming solar radiation; second is to change how much is 
reflected by the cloud's atmospheric particles, and vegetation.
    The third is to influence how much radiation escapes into 
space by altering greenhouse gas concentration. Humans can 
influence the latter too. So what do the climate models predict 
in this region, and what is their uncertainty?
    The 21 global models in this specific region predict 
temperatures will increase by up to 6 degrees Centigrade or 11 
degrees Fahrenheit by the end of the century. There's much less 
certainty in predicting future precipitation because there are 
so many factors that influence this variable.
    The 21 models also predict a 5 to 10 percent increase in 
winter and up to 15 percent decline in summer precipitation. 
However, this is very important: Even if there's no change in 
precipitation the rising temperatures will mean greater 
evaporation rates, which will reduce soil moisture and water 
availability.
    Model uncertainties arise from several factors, including 
clouds, atmospheric concentration of greenhouses gasses and the 
reflection of the earth's surface due to the cover of sea ice 
and vegetation.
    We simply don't know what the concentrations of greenhouse 
gasses will be in the future.
    Sea ice is very reflective and so the extent of it is 
covered is very important to climate models. However, the melt 
rates are still very unpredictable. Activities that reduce the 
vegetative cover for disturbed soil surface such as grazing, 
vehicles and fires are increasing in this region.
    They also increase the earth's reflection and need to be 
included in these models. This creates higher, drier air rising 
off the earth surface that can reduce local and regional cloud 
formations and precipitation, which then results in less 
vegetation, which then results in less rain. Higher 
temperatures will reduce soil moisture, which also reduces 
vegetative cover. Fire frequency and severity in size will 
likely increase as soils dry and make the vegetation more 
susceptible to insect infestation and death.
    All of these changes will greatly increase reflection and 
thus decrease local precipitation. Downscaling from global to 
regional and local scale models will need to take into account 
these land use activities and their effects on climate. Drying 
soils and decreasing precipitation will also increase soil 
erosion, which will also affect the climate. As soils dry and 
vegetative cover is reduced and soil surface disturbance from 
fires increase, we can expect much greater rates of soil 
erosion than with wind and water loss.
    The replacement of desert soils is a very slow process; the 
formation takes five thousand to ten thousand years. Eroded 
sites will experience reduced fertility, reducing the biomass 
and nutritive quality of the plants.
    In addition, soil erosion decreases the water holding 
capacity of soil moisture and soil moisture is an important 
factor and in climate models. Winter erosion will be especially 
problematic in this region. Most desert soils are stable until 
disturbed, surprisingly. Burned areas can also be a large 
source of dust. Dust has more substantial and far-reaching 
impacts than most of us can imagine, including automobile 
accidents, severe health problems and large economic losses.
    Perhaps most importantly for this group dust is deposited 
on the snowpack of the nearby mountains, causing the snow to 
melt up to thirty days earlier or more than usual, reducing the 
amount of late season water delivery.
    Lake cores show that the current deposition rates are three 
to six times higher than before 1850, and as soils dry and are 
increasingly disturbed, dust deposition and the snow melts 
rates will increase. Dust from fire increases particulates in 
the atmosphere, and this will, again, influence future climate. 
However, the degree of this influence has yet to be quantified.
    Last, the combination of increased temperatures and albedo 
and earlier snow melt will decrease water supplies, especially 
in the summer. USGS models predict a ten to forty percent 
decline in stream flow for this region.
    Many small springs and streams will likely dry up, 
affecting the plants, wildlife, livestock and humans that 
depend on them. Earlier impacts to snow melt will likely impact 
ecosystems such as the Colorado River. Reduced surface water 
will reduce evaporation rates, which can influence, again, 
regional cloud formation and precipitation.
    So what can science do to improve our understanding of the 
challenges that the climate change will present?
    First, we really need to continue to improve our climate 
models, use scientific research to identify and quantify new 
and important parameters. We especially need to improve our 
ability to downscale from global models to scales pertinent to 
resource management decisions.
    We need to identify, map and prioritize resources at risk. 
For example, we need to know what soils are susceptible to 
plant invasion and erosion; we need to know what areas are 
susceptible to fire, which springs and streams are likely to 
dry up, what species in the habitat are at special risk.
    We need science to help managers understand how they can 
alter the types, timing and intensity of land use to reduce 
soil movement and plant invasion from fire, and we need long-
term research sites that are part of a extensive national 
scale, local monitoring program to document and forecast 
climate effects which will improve understanding of the 
mechanisms behind the changes that are observed.
    Thank you very much for your attention I'll be delighted to 
answer questions.
    [The prepared statement of Ms. Belnap follows:]
  Prepared Statement of Jayne Belnap, Research Ecologist, Geological 
                   Survey, Department of the Interior
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear here today to discuss how climate change models 
can help us better understand the interaction between climate change 
and environmental threats in the Great Basin/Colorado Plateau region. 
Climate change is perhaps the most complex and multi-faceted challenge 
facing public land managers. Climate change affects biota, water, 
ecosystems, cultures, and economies. Although climate change is a 
natural, continuous Earth process, changes to the Earth's climate are 
related to human activities as well. Whether the causes are natural or 
from human influences, the U.S. Geological Survey (USGS) climate change 
focus is on understanding its impacts and the potential adaptive 
strategies for managing natural resources and ecosystems in the face of 
these changes.
                        climate change modeling
    The most recent generation of global climate models are called 
Atmospheric-Ocean Global Circulation Models (AOGCM) because the 
predictions from these models are based on data from the atmosphere, 
oceans, and land masses. Atmospheric data in the models describe 
transfers of heat, radiation, and water vapor, and the processes of 
cloud development and precipitation. Oceanic factors include sea 
surface temperatures, sea ice, and ocean currents. Land factors include 
vegetative cover, soil types, water storage and the type of water 
delivery (i.e., rain versus snow). As the name implies, AOGCM combines 
these factors to create global climate models.
    There are many issues that create uncertainty in these models. The 
most problematic concern how clouds, sea ice cover, and atmospheric 
greenhouse gas concentrations affect climate. Clouds affect climate in 
many ways, including increasing or decreasing radiation, creating 
precipitation, and affecting small-scale circulation patterns. To 
illustrate the problem, clouds cover approximately 60 percent of the 
Earth's surface and are responsible for up to two thirds of Earth's 
albedo (reflectance of light from the surface--which is about 30 
percent). A decrease in albedo by only 1 percent can increase 
temperatures by about 1C. Secondly, the future extent of sea ice and 
snow fields, which have a large influence on the outcome of the models, 
is another unknown. As the concentrations of greenhouse gases rise and 
warm the Earth, snow and ice begin to melt. As the underlying ground or 
water is darker than the snow and ice, they absorb more heat from the 
Sun, causing more melting, which results in additional warming. This 
creates a feedback loop known as the `ice-albedo feedback'. Lastly, the 
level of emissions (carbon dioxide and other greenhouse gases) that can 
be expected in the future is unknown. Detecting, understanding and 
accurately quantifying such feedbacks and emissions is extremely 
difficult, but the valuation of these factors can greatly alter climate 
predictions.
    There are issues associated with downscaling of the AOGCM 
projections as well. Whereas we are fairly confident in global-scale 
drivers of climate, the effect of local factors are much less certain. 
There are two main approaches to downscaling. The first approach 
constructs an empirical relationship between a local factor (e.g., 
stream flow) and large scale atmospheric circulation model prediction 
of that factor. The second approach, dynamical downscaling, basically 
uses a weather prediction model to downscale AOGCM output to much 
higher resolutions. Both methods have their advantages and 
disadvantages. Empirical downscaling requires a long record of high 
quality data in order to build the required empirical relationships. 
For many parts of the United States, such records are lacking. For 
example, there are very few long-term climate station records in the 
Great Basin/Colorado Plateau region that can be used to create or 
verify downscaled models. In addition, the paucity of climate stations 
means that climate information for a specific location can only be 
modeled (that is, data from a few stations are extrapolated over a 
larger area that has similar elevation, topography, etc.). Thus, data 
for the model is often coming from another model, increasing the risk 
of error.
    The primary disadvantage of dynamical downscaling is the high 
computational cost. Both methods will give erroneous climate 
projections if the large-scale circulation provided by the AOGCMs is 
incorrect, as they provide the boundary conditions for the heat, water 
vapor, and pressure fields. As physical equations are then used to 
calculate what these fields are in higher resolution, any error in the 
large scale fields is propagated throughout the downscaled models.
            use of models in understanding future conditions
    It is not valid simply to extrapolate the observed past changes in 
climate change forward into the future. However, the demonstrated 
success of current climate models in simulating the global pattern of 
observed 20th century changes means that those models are credible, 
though far from perfect, tools for looking into the future. As 
discussed in more detail below, given the most realistic assumptions 
about future atmospheric carbon dioxide concentrations and other 
drivers of climate change, these models project a long-term drying 
trend in the Southwest, including the Great Basin. The drying trend in 
the Southwest implies an increasing probability of occurrence of 
Southwestern drought. These projections are, at best, a general outline 
of climate change for the real future. I note, however, that there is 
much room for improvement. For example:

  <bullet> Climate models typically represent conditions over very 
        large areas. Such an approach has been adequate to assess 
        global warming. However, climate varies geographically on a 
        much finer scale, especially in mountainous regions. Therefore, 
        to assess practical impacts on water and to design, plan, and 
        implement needed adaptations, resource managers and 
        policymakers need information on a much finer spatial scale, 
        more like that of a county. To deliver this, much-higher-
        resolution climate models are needed.
  <bullet> The Nation has no comprehensive network for the monitoring 
        of climate change. The available measurements, assembled from 
        stations established for other purposes, such as stream gauges, 
        have proven critical for the progress that has been made in 
        detecting global change. However, keeping higher-resolution 
        models accurate and tracking ongoing changes related to climate 
        change impacts will require higher-resolution measurements.
  <bullet> Current climate models do not capture the effects of 
        development, land use, and land-cover change on climate. This 
        has not been identified as a crucial impediment for global 
        analyses, but it likely matters at the finer spatial scale of 
        most resource management decision-making.
  <bullet> A change in climate causes a change in water demand, e.g., 
        for irrigation and for natural ecosystems. Our understanding of 
        this relation between climate and water demand needs 
        improvement if models are to be more effective in predicting 
        the effects of climate change on future water needs.
  <bullet> To make best use of available information in a changing 
        climate, resource managers will need to employ a wider variety 
        of science-based decision support tools than those that have 
        sufficed in the past. These new tools must recognize that 
        climate will change during the lifetime of an operational 
        project and that estimates of the changing climate are 
        uncertain. This will require a sea change in the field of 
        resource management. Such a change will not be accomplished 
        without a concerted effort by government, academia, and 
        professional societies.
                     modeling and research findings
    The averaging of 21 climate models predicts that temperatures will 
increase by up to 6C (11F) in the Great Basin/Colorado Plateau region 
during the next century (Christensen et al., 2007). This is a large 
increase, and thus, it is likely to have profound effects on water 
resources and the living systems that depend on those resources. 
Atmospheric carbon dioxide and nitrogen levels are also likely to 
increase. There is much more uncertainty in predicting future 
precipitation than temperature. Precipitation predictions vary widely, 
depending on how the models are constructed. The Intergovernmental 
Panel on Climate Change averaged model predicts 5-10 percent increase 
in winter precipitation, 0-15 percent decline in summer precipitation, 
and 0-5 percent decline in annual precipitation (Christensen et al., 
2007).
    In addition, a review of these models shows that extreme events 
(e.g., drought, wet years, floods, high winds) will increase. These 
extreme events will cause significant challenges to the biological 
components of the Earth system in terms of their ability to adapt or 
mitigate to other areas as a result of abruptly-changing climate 
(Christensen et al., 2007).
    Land use activities (e.g., recreation, clearing for housing, 
grazing, cropland, military activities) are also increasing rapidly in 
this region and will further exacerbate the effects of climate change 
on biological resources. These activities enhance the invasion of 
exotic plants, reduce or remove vegetative cover, and destroy physical 
and biological soil crusts, leaving soils unprotected, reducing forage 
and habitat, and increasing the reflectance, or albedo, of the soil 
surface (Foley et al., 2005; Notaro et al., 2006).
                            invasive species
    With climate change and land use invasive plants, especially exotic 
annual grasses, will likely increase. Soil surface disturbance, 
elevated carbon dioxide levels, the deposition of atmospheric nitrogen, 
and increased fire will all contribute to a likely increase in exotic 
annual grasses such as cheatgrass (D'Antonio and Vitousek, 1992; Brooks 
et al., 2004). In an area such as the Great Basin/Colorado Plateau 
region, where exotic annual grasses have been replacing native 
perennial plant communities, this could have severe consequences, 
resulting in years where such landscapes will have little or no forage 
and habitat for wildlife and livestock, resulting in a severe loss of 
biodiversity. During this time, soils will also be highly vulnerable to 
erosion. In addition, annual grasses alter soil biota, decomposition 
rates, and nutrient cycling rates, resulting in lower soil fertility.
                             wildland fire
    Fire frequency and severity will also increase with the invasion of 
annual plants and future extreme wet/dry conditions. Re-burning of 
areas facilitates further annual plant invasion, which will lead to 
increased fire frequency (Brooks et al., 2004). Because most desert 
shrubs grow slowly and require extended periods without fire to re-
establish, more frequent fire is particularly destructive in shrub-
dominated desert systems such as those found in the Great Basin/
Colorado Plateau region. With the loss of perennial vegetation, 
important microclimates are lost, including those that enhance the 
germination and establishment of native plants and habitat for native 
animals. Fire can also create hydrophobic soils that, when combined 
with loss of vegetation cover, allow for increase soil erosion, and can 
deplete the nutrient and carbon stocks in soils. Biota living at, or 
just beneath, the soil surface are often killed, slowing decomposition 
cycles and reducing soil nutrient availability.
                             soil moisture
    As temperatures rise, soil moisture will decrease. One study has 
shown that, by 2050, even if there is no decrease in precipitation, 
increasing temperatures alone will result in average soil moisture 
conditions being lower than those experienced during any of the mega-
droughts of this century (Dust Bowl years of the 1930s; drought years 
1953-1956 and 1999-2004; Andreadis and Lettenmaier, 2006). This will 
result in reduced plant cover and biomass, and thus, less forage and 
habitat for livestock and wildlife. Insect outbreaks are also often 
associated with lower soil moisture, as the resistance of vegetation to 
infestation is reduced as a result of this stress. The combination of 
dry soils and insect infestation have been known to kill thousands of 
square miles of vegetation (e.g., the 2002-2003 Ips beetle infection/
infestation of Pinyon Pine in the Southwest United States), leaving the 
area highly susceptible to fire and subsequent invasion by weeds 
(Breshears et al., 2005).
    Observations during dry periods of above average temperature have 
also shown that shallowly rooted plants, such as perennial grasses and 
cactus, will be highly vulnerable to future dry and hot conditions 
(Ehleringer et al. 1999; Breshears et al. 2005). Many animals at the 
base of the food chain (e.g., mice, rabbits) depend on grass and cactus 
for food and shelter; thus, a reduction in these species is expected to 
reverberate upward, resulting in the loss of predators such as raptors, 
mountain lions, and bears. Grass is also the main food for cattle and 
elk. Soil lichens, which add stability, carbon, and nitrogen to soils, 
also die with increased temperatures. Their loss will further 
contribute to a reduction in soil stability and fertility (Belnap et 
al., 2006).
    Research by USGS and colleagues shows that increased warming could 
decrease runoff by up to 30 percent in many streams and rivers in the 
Great Basin/Colorado Plateau region (Milly et al., 2005). This includes 
water in the Colorado River, which currently supplies the needs of 25 
million people in seven U.S. states, two Mexican states, and 34 Native 
American tribes (Pulwarty et al. 2005). As population grows, the demand 
for water will increase at the same time that water availability is 
decreasing due to climatic conditions (and soil erosion, see below). 
Small springs and streams may dry up earlier in the season, or 
completely, placing plants, animals, and humans that depend on surface 
water at risk.
                              soil erosion
    Research by USGS and others shows that desert soils are mostly 
stable until disturbed (Marticorena et al., 1997; Belnap, 2003). 
However, the interaction of lower soil moisture, fire, exotic plant 
invasions, and surface-disturbing activities will reduce the cover of 
natural soil stabilizers (plants, physical and biological soil crusts, 
rocks) and result in greater soil erosion. Restabilization of these 
soils often depends on heavy precipitation events; thus soils will 
continue to erode during continued drought. As erosion differentially 
removes the fine particles in soils to which nutrients are attached and 
which increase water-holding capacity of the soil, the remaining soils 
are less fertile and dry more quickly. This will result in less plant 
biomass and thus less forage and habitat for wildlife and livestock. In 
addition, reduced soil fertility will likely result in a reduction in 
the nutritive quality of the plant tissue (Marschner, 1995). Thus, 
livestock and wildlife will need to eat more to meet their nutritional 
requirements.
    Soils eroded by water increase the sediment load in streams and, 
ultimately, large rivers. These sediments are often heavily laden with 
salts and heavy metals, contributing to water-quality problems 
downstream. Soil deposition into small springs and streams can be 
especially problematic, as the amount of water present is so low the 
resource can be completely lost.
                              dust storms
    One largely overlooked issue regarding soil erosion by wind is that 
it can produce dust storms that can have profound and lasting effects. 
Dust obscures visibility on highways and thus endangers travelers. If 
inhaled, the fine particles found in dust can cause asthma and other 
respiratory disease. Dust can carry Valley Fever, which can be fatal 
(Kirkland and Fierer, 1996). Dust storms can cause large economic 
losses through lost work time and ruined machinery. Blowing sediment 
can bury plants and eliminate habitat and forage. Dust also affects 
water storage and delivery. When dark-colored dust is deposited on the 
snowpack of downwind mountains and absorbs solar radiation, the 
underlying snowpack melts 30 days or more earlier than normal (Painter 
et al., 2006). Earlier melting reduces water storage in the snowpack, 
thereby reducing the amount of water that is available in streams and 
rivers during late summer. A faster melting rate may also increase 
spring flooding, reducing the opportunity to store water in those 
downstream reservoirs (Parker, 2000).
                           increased albedos
    The loss of vegetation turns the Earth's surface from a dark color 
to a light color. Thus, the energy from the sunlight hitting a 
lightened surface is reflected upwards, rather than being absorbed by 
dark vegetative surface. In addition, the surface is smoothed and 
moisture evaporated from plants is lacking. The resultant rising hot 
and dry air reduces cloud formation, thus reducing subsequent 
precipitation. The result can be dramatic. Areas with reduced 
vegetative cover receive less precipitation than adjacent land covered 
by vegetation (Charney et al., 1975). Therefore, as land use, drought, 
fire, or a combination of these factors results in reduced vegetative 
cover, we can expect a reduction in precipitation as well (Foley et 
al., 2005; Notaro et al., 2006). This often creates a feedback loop, 
where drought reduces vegetative cover which increases albedo; this 
increase, in turn, increases the severity of the drought, which further 
reduces vegetative cover. This problem is especially severe where 
native perennial plants have been replaced by annual grasses. Under 
drought conditions, soils in these areas often completely lack 
vegetative cover, and thus albedos are greatly increased.
                         plant re-establishment
    Because plant recovery depends on soil moisture availability, lower 
soil moisture will slow or prevent the recovery of plants and soils 
from fire or surface-disturbing activities. The presence of invasive 
annual grasses will often prevent the re-establishment of native 
vegetation by facilitating frequent fires, killing the native plants 
(Brooks et al., 2004). Almost all the research done on restoring 
drylands has occurred during the past 30 years, which was a relatively 
wet period. Thus, many of the restoration techniques that have been 
developed may not work under anticipated future dry conditions. 
Additional research will be needed to determine restoration techniques 
under dry conditions.
    Natural and human-caused disturbances have interacted over the past 
several decades to change rangelands and ecosystems across as much as 
one half of the Great Basin's one hundred million acres (McIver et al., 
2004). Protracted drought coupled with invasive species, altered fire 
regimes, grazing, human settlement and recreation, and energy 
exploration and development have yielded suites of vegetation that 
often cannot support wildlife species. Increasing annual temperature 
and decreasing precipitation regimes have exacerbated these ecological 
changes, and climate change will continue to interact with plant and 
animal dynamics on dry lands.
                               conclusion
    To better understand the interaction between climate change and 
these environmental threats, and to provide the science needed by 
resource managers and decision makers, the USGS is working to:

  <bullet> understand how climate change, and the interaction among 
        climate, land use, invasive plants, and fire, will impact 
        ecosystem processes, soil stability and fertility, plants, 
        wildlife, and humans at the local and regional scale.; document 
        past climate, land use, land cover, and disturbance regimes 
        (e.g., fire, extreme climate events); expand existing, long-
        term monitoring of climate, air, and water quality (including 
        wind and water borne sediments), soils, ecosystem processes, 
        vegetation, animals, and land use/land cover; and simulate 
        future conditions with experimental research techniques and 
        modeling;
  <bullet> document how the interactions between hydrology, climate, 
        land use, and vegetation affect soil movement; identify and map 
        soils vulnerable to invasion and erosion, and identify where 
        eroded soils are deposited; research ways to alter the type, 
        timing, and intensity of land use to reduce soil movement; 
        measure the effects of dust on water storage (in soils, ground 
        water, aquifers, and snowpack), delivery (timing, intensity, 
        and duration), and quality (salinity, heavy metals, sediment 
        load); document impacts of altered hydrologic cycles on 
        terrestrial and aquatic resources; expand current water-
        quantity and water-quality monitoring at different scales 
        within the watershed, expand current aquatic and terrestrial 
        resource monitoring, and determine the sources and sinks for 
        mobilized sediment;
  <bullet> research new restoration techniques and test old techniques 
        under future climate conditions in collaboration with our 
        colleagues at land management agencies such at the Bureau of 
        Land Management; research ways to restore ecosystem processes, 
        such as decomposition and nitrogen cycling; test old 
        restoration techniques under future conditions by using 
        manipulative research;
  <bullet> model future climate change at the regional and local scale 
        and use the understanding of the interactions discussed above 
        to forecast future conditions in relation to changing climate, 
        land use, disturbance, and land cover; and
  <bullet> effectively communicate these findings to policy makers, 
        land managers, scientists, and the public.

    Mr. Chairman, thank you for this opportunity to present testimony. 
I would be pleased to respond any questions that you or other Members 
of the Subcommittee may have on this topic.

    Senator Wyden. Thank you, doctor, fine statement.
    Tom.

 STATEMENT OF MIKE PELLANT, GREAT BASIN RESTORATION INITIATIVE 
   COORDINATOR, BUREAU OF LAND MANAGEMENT, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Pellant. Thank you, Mr. Chair, for the opportunity to 
address the committee on the Great Basin and through the 
actions that were taken to mitigate the problems.
    I'll put the first slide up. What I'd like to do in the 
next 5 minutes is to briefly address some of the issues and 
then move into some of the activities that BLM Great Basin 
Restoration Initiative has taken to try to mitigate these 
issues.
    First, as you mentioned before, the Great Basin includes 
parts of five States. BLM is the majority land manager in the 
area managing a little over 50 percent of the total acreage 
within the Great Basin. Wildfires are what we feel are the 
symptom. The illness is really the invasive species and the 
lack of land health. We've got three main issues; basically 
Cheatgrass, I think we're all familiar with, BLM lands, some 25 
million acres are pretty heavily infested with this annual 
grass. We have Juniper encroachment occurring in many of our 
communities, and then finally, kind of the new wave of invaders 
from annual biannual perennial forbs that are invasive as well, 
so all of these are areas of concern.
    This graphic shows the wildfires in the Great Basin over 
the last 17 years, so we've only looked at it for 17 years 
because of the some of the difficulties going back further and 
getting polygons of fires, but I think what really sticks out 
here is the red areas are fires that occurred this past summer. 
I might point out that two of them, one of them, the Murphy 
Complex fire, this was over 650,000 acres; the Milford Flat 
fire in Utah was nearly 350,000. Both of these were the largest 
fires in those States, at least on public lands that have ever 
been recorded.
    So as you can see the wildfire issue is growing. A lot of 
it can be associated with Cheatgrass areas. For example, the 
north central area of Nevada between Elko and Winnemucca, the 
Snake River Plane in Southern Idaho and some of the West Valley 
areas in Utah. Some of the implications of climate change, 
Juniper encroachment is expected to increase, which has a lot 
of implications.
    Also, sagebrush is predicted to be driven more northward as 
temperature and frost free periods increase in the southern 
part of the Great Basin. Obviously, all of this has some very 
significant, not only social and economic, but legal aspects, 
the Endangered Species Act, for example.
    Perhaps one of our biggest concerns is the effect of 
increased carbon dioxide on Cheatgrass, not only does it 
increase Cheatgrass, but it's also tending to change the makeup 
of Cheatgrass, more lignens which is the less digestible 
component, and we're concerned about less digest--or less 
palpability; more fuel accumulations over time because of this 
as well.
    So what can we do about it? We've got a lot of issues 
facing us. The strategy we've put together under the Great 
Basin Restoration Initiative is let's maintain those areas that 
are functioning now.
    In this example make putting a green strip between a 
Cheatgrass area and a sagebrush area to protect the integrity 
of the sagebrush area, and then let's do restoration, but let's 
do it strategically. The postage stamp approach doesn't work; 
we really need to leave as big of a footprint as we can with 
our restoration effort. The secretary's healthy lands 
initiative is a good example of a proactive approach to 
restoration in the Great Basin.
    Another thing that we obviously need to do is become more 
flexible in our management and our planning, adaptive 
management is going to be even more important in the future, 
and as well we need to incorporate climate change into our land 
use plans and landscape level restoration. We're working 
closely with the Ely Field office, the Eastern Nevada Landscape 
Coalition, to do a landscape level plan on twelve million acres 
of public land in this part of the Great Basin.
    I will talk just briefly about Cheatgrass and using the 
livestock to control it.
    The upper photo shows a very descriptive approach using 
livestock in the wild and urban interface, it works very well. 
The big question is, can we employ livestock on the more 
landscape level to meet these objectives?
    The Idaho BLM State director has put together a task force 
of scientists and managers to address this issue on the 650,000 
acre Murphy Complex fire. His charge is to come up with some 
recommendations relative to livestock use that may not only be 
applicable to this fire, but to others as well within the Great 
Basin.
    So we do want to take a very careful look at this and 
utilize this tool where appropriate. Last, it's important not 
to just get rid of the problem with the Cheatgrass and the 
other invasive's, but try to get back to a native community, 
there's kind of a misconception that the native can't compete 
with Cheatgrass. I think we've demonstrated through some of our 
native planting that they can. We've also got a native plant 
development program that's producing a lot of results in terms 
of seeding equipment.
    So I'll just close simply with just reiterating what our 
USGS colleagues have said, that we need better tools and 
science; we need to incorporate better adaptation in our 
management, be very strategic in restoration, and obviously 
work with others in terms of collaboration and cooperation.
    Thank you.
    [The prepared statement of Mr. Pellant follows:]
Prepared Statement of Mike Pellant, Great Basin Restoration Initiative 
   Coordinator, Bureau of Land Management, Department of the Interior
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear here today to discuss the major threats to 
ecological and economic stability in the Great Basin and the Bureau of 
Land Management's efforts through the Great Basin Restoration 
Initiative to reduce these threats. My testimony will focus on the key 
threats of invasive species, especially cheatgrass, and wildfires. 
Climate change, including extended droughts, is expected to intensify 
these issues and also negatively affect water management in the Great 
Basin. I am the Coordinator for the Bureau of Land Management's Great 
Basin Restoration Initiative and am responsible for coordinating 
restoration-related activities across a five-State area for the Bureau 
of Land Management.
                               background
    The Great Basin is North America's largest desert, encompassing 135 
million acres of land between the Rocky and Sierra Nevada Mountains in 
western North America. The manager of the largest land base in the 
Great Basin (includes parts of Nevada, Utah, Idaho, Oregon, and 
California) is the U.S. Department of the Interior's Bureau of Land 
Management (BLM) with oversight of 75 million acres of public land. The 
Great Basin is characterized by aridity (over half the area receives 
less than 12 inches annual precipitation) and a mix of shrubs 
[sagebrush (Artemisia tridentata) being the dominant], with an 
understory of native grasses and forbs. Today, population growth, 
wildfires, and invasive species are reducing the quality of native 
rangelands at an accelerating rate (BLM 2000). Based on recent studies 
by the U.S. Geological Survey and others, climate change could well be 
expected to accelerate these changes and associated impacts.
    The Great Basin is a land of wide, historical fluctuations in 
climate both on a relatively short and long time frame. Extremes in 
precipitation (wet years followed by multi-year extreme droughts) and 
temperature challenge the management of livestock, wild horses and 
burros, and wildlife on public lands. Given this variability in 
climate, public land managers have flexibility in adjusting time and 
amount of forage consumption and water use to sustain land health over 
the long term. BLM managers evaluate these situations on a local basis 
and have the regulatory authority to remove livestock or wild horses 
during extended droughts when forage production or water sources are 
inadequate to sustain native vegetation. The challenge is to separate 
the natural climatic variation, especially extended droughts that have 
always existed in the Great Basin, from climate change, in order to 
modify and adapt management strategies to adjust to the changing 
environment.
factors relating to climate change, including water, invasive species, 
                    and wildfires in the great basin
    The impact of climate change on Great Basin ecosystems may be 
magnified compared to other ecosystems due to the aridity and lower 
resiliency of these lands. Rangelands in the Great Basin always are 
``on the edge'' given the uncertain timing and quantity of 
precipitation, invasive species, altered fire regimes and increasing 
human population pressures.
Water
    Water is the lifeblood of the Great Basin, given the low 
precipitation and high evapotranspiration (the sum of evaporation and 
plant transpiration from the earth's land surface to atmosphere) over 
the majority of the desert. Water is needed to support an increasing 
population (three of the ten fastest-growing metropolitan areas in the 
United States--Boise, ID, Reno, NV, and Las Vegas, NV--are in or on the 
edge of the Great Basin) while still meeting livestock, wildlife and 
fish needs. The predicted changes of a decline in snowpack, earlier 
peak spring streamflows, lower summer streamflows, and elevated stream 
temperatures could have dramatic effects on habitats and resources 
available to stream fishes (Isaak et al. 2007). Rainbow and brown trout 
are predicted to be restricted to higher elevations (Jager et al. 
1999). The geographic distribution of the Lahontan cutthroat is 
projected to be reduced (Dunham et al. 1999) while the bull trout, 
currently listed under the Endangered Species Act as ``threatened'' 
with extinction in the northern portion of the Great Basin, could 
potentially face even greater risks as a result of climate change 
(Rieman et al. 1997).
    Change in the timing and amount of streamflows and spring and seep 
discharges will affect a wide range of wildlife species, livestock, and 
wild horses and burros. Water availability from these sources could dry 
up earlier in the summer as a result of the early melt of the snowpack 
causing increased competition for water and forage across the 
landscape. Pipelines and troughs installed by BLM and livestock 
permittees that provide water for livestock, wild horses, and wildlife 
species over tens of millions of acres may have reduced capacity to 
meet these needs.
    Climate change and the associated impacts on the timing and 
quantity of water available may exacerbate conflicts over water rights 
between agricultural and urban interests. Proposals to transport water 
from the Great Basin to Las Vegas are already a contentious issue and 
could affect important aspects of human occupation and the resource 
values in the Great Basin.
Native Plant Communities and Invasive Species
    Invasive species are one of the greatest concerns of many managers 
in the Great Basin. A consortium of organizations led by The Nature 
Conservancy identified the Great Basin as the third most endangered 
ecosystem in the United States due in large part to the dominance of 
exotic species (Stein et al. 2000). Cheatgrass (Bromus tectorum) is an 
invasive exotic and the most ubiquitous invasive plant in the Great 
Basin, occupying over 25 million acres of public lands managed by BLM 
(BLM 2000). Besides being a serious competitor with native plants, 
cheatgrass is a significant contributor to the increase in frequency 
and size of wildfires in the Great Basin (Whisenant 1990). Cheatgrass 
is expected to respond even more favorably than most native plants to 
conditions with increased atmospheric CO<INF>2</INF> (Smith et al. 
2000). One recent study hypothesized that the increase in rangeland 
wildfires is partially due to enhanced cheatgrass production stimulated 
by increasing CO<INF>2</INF> levels (Ziska et al. 2005). This study 
also found that cheatgrass will become more coarse (e.g., lignin 
content will increase) in the future which will reduce the time that it 
is palatable to livestock and wildlife and thereby result in the 
greater accumulation of fuel loads.
    Managers are also concerned about the predicted increase in woody 
vegetation as a result of climate change. An increase in woodland 
encroachment into shrublands/grasslands, including a significant 
expansion of juniper into sagebrush steppe, is expected. One model 
predicts that much of the sagebrush in the southern Great Basin could 
eventually be replaced by Mojave Desert shrubs to the south due to 
projected higher temperatures and less frost in this portion of the 
Great Basin (Neilson et al. 2005). The increase in juniper trees will 
reduce palatable forage for livestock, habitat for wildlife, and 
protective understory vegetation resulting in more soil erosion. Loss 
of sagebrush will have significant impacts on wildlife species, 
especially sage-grouse and other sagebrush obligate species, which are 
dependent on this shrub-dominated ecosystem for food and shelter (Knick 
1999).
Wildfires
    Wildfires in the Great Basin are a subject of debate again as 
approximately 2.7 million Federal and non-Federal acres in the Great 
Basin burned during the 2007 fire season. Over the last 17 years, 
nearly 16.2 million Federal and non-Federal acres have burned in the 
Great Basin. Over 1.9 million acres of the total wildfire acres burned 
two or more times during this same period due, in large part, to 
increased fuel continuity as a result of the presence of annual 
grasses, including cheatgrass. (Whisenant 1990) Wildfires spread 
quickly across such landscapes. (Whisenant 1990) These figures do not 
include wildfires prior to 1990 so the acreage of reburned areas in the 
Great Basin is considerably larger. Fire suppression and rehabilitation 
costs, and private property losses could increase if the plant 
community changes projected for the Great Basin occur. Besides the 
increased cost to the American public, wildfire behavior could be more 
extreme, especially in areas where woody vegetation has increased fuel 
loads. Risks to fire fighters and the public may continue to rise as 
well.
    More severe and frequent wildfires will increase with the invasion 
of exotic annual plants, such as cheatgrass, and with increased 
frequency of extreme wet/dry conditions. Wet conditions result in the 
increased spread of certain exotic annual grasses that then serve as a 
continuous fuel for wildfires during subsequent dry periods. In turn, 
these wildfires could further increase weed expansion, soil erosion, 
and carbon loss. As the exotic annual grasses become more abundant, the 
potential for fire increases, resulting in a positive feedback loop. 
Increased wildfires in shrublands in the Great Basin and conversion to 
cheatgrass dominance has now been documented to cause large scale 
conversion of rangeland carbon sinks to carbon sources (Bradley et al. 
2006). Disruptions to livestock operations on public lands could be 
more common and habitat important to wildlife and wild horses and 
burros may continue to decline. It is not known how climate change, 
more generally, will impact the distribution of State or federal listed 
noxious weed species that currently cause great ecological and economic 
harm within the Great Basin.
         efforts to address environmental threats and climate 
                       change in the great basin
Planning
    The Great Basin Restoration Initiative (GBRI) has assisted in 
preparing some draft guidance to address potential effects of climate 
change in several Great Basin Land Use Plans. The Ely, Nevada, Resource 
Management Plan currently underway now includes a landscape approach to 
restoration which is closely tied to GBRI. GBRI promotes a strategy of 
maintaining intact native plant communities and strategically restoring 
degraded areas. This strategy is being used in other planning documents 
outside the Great Basin.
    Climate change is addressed in the ``2006 Conservation Plan for 
Greater Sage-Grouse in Idaho (http://fishandgame.idaho.gov/cms/hunt/
grouse/conserve--plan/)'' as it was ranked as the ninth of 19 threats 
to sage-grouse and sage-grouse habitat in Idaho. Twenty conservation 
measures (ranging from public education to planning restoration 
projects) were developed to help local sage-grouse working groups 
address climate change as they develop conservation strategies and 
local projects. More emphasis on climate change will be incorporated 
into land use and sage-grouse plans in the future with additional 
agency and Departmental guidance and GBRI technical assistance.
Science and Monitoring
    A key component of GBRI is the application of science and 
monitoring to improve our ability to maintain healthy landscapes and 
strategically restore degraded areas. Consideration of potential 
effects of climate change are incorporated into these restoration 
strategies since treatments applied today will have to be applicable in 
the future to meet resource and social needs. For example, re-
establishment of sagebrush in areas burned by wildfires is a high 
restoration priority. Sagebrush is very sensitive to the local climatic 
conditions. Since sagebrush has an expected life span of 50-100 years, 
it is imperative that appropriate seed sources be selected for current 
seeding projects to maximize the potential that the sagebrush will 
adapt to survive in an altered climate in the future.
    One important strategy to increase the resiliency of Great Basin 
ecosystems to future disturbances and climate change is to either 
maintain or restore a diverse native plant community. Native plant 
diversity acts as an insurance policy against future changes by 
including a suite of species adapted to different environmental 
conditions. Loss of a few species, although not desirable, will not 
cause the system to crash. To improve the BLM's ability to restore 
degraded rangelands now and into the future, GBRI has sponsored a 
regional science and development project to increase the availability 
of native plants for restoration. This program, ``Great Basin Native 
Plant Selection and Increase Project'' was initiated in 1999 as part of 
the BLM's Native Plant Materials Development Initiative and has 17 
State, federal, academic and seed industry cooperators today (http://
www.fs.fed.us/rm/boise/research/shrub/greatbasin.shtml). Native seed 
have been collected from nearly 1,500 sites in the Great Basin 
providing the project cooperators with the ability to evaluate, select 
and augment production of native plant seed. Having such collections 
available for purchase in the future will provide managers with the 
needed plant materials to re-establish diverse native plant communities 
more resilient to the effects of a warmer climate with more erratic 
precipitation patterns.
    Reducing the size and extent of wildfires is another component of 
GBRI's science program. GBRI is involved in the assessment of livestock 
grazing effects on fire spread and severity in the Murphy Complex fire. 
This wildfire burned nearly 650,000 acres in Idaho and Nevada this past 
summer. A team of fire and resource specialists is addressing this 
issue with rancher input, remote sensing, monitoring data, and fire 
models to determine how livestock grazing may be used in the future to 
reduce catastrophic wildfires. This is one of several projects in the 
Great Basin addressing livestock, fuels, and wildfires.
    Monitoring the potential impacts of climate change on the flora and 
fauna on the 75 million acres of public land in the Great Basin 
requires a landscape approach. GBRI is participating with the USGS on 
the development of a ``Great Basin Integrated Landscape Monitoring 
Pilot Project'' that will assist managers to predict effects of climate 
change on stressors such as invasive species and wildfires at a 
landscape scale (http://fresc.usgs.gov/research/StudyDetail.asp?Study--
ID=566). GBRI has also implemented a regional pilot project under the 
BLM Assessment, Inventory, and Monitoring Initiative project in the 
heart of the Great Basin in the Owhyee Uplands (http://web.id.blm.gov/
owyheeuplands/). This project has been designed in part to provide 
baseline data at the landscape level to monitor plant community changes 
over time. This will improve the BLM's ability to detect plant 
community changes over time and to better distinguish climate change 
influences from other forms of disturbance. GBRI has partnered with The 
Nature Conservancy to co-fund a landscape ecologist to assist in this 
project.
    BLM/GBRI is represented on the Executive Committee for the 
development of the Intermountain Regional Ecological Observatory 
Network (IRON), the Great Basin regional application to the National 
Science Foundation's National Ecological Observatory Network (NEON) 
(http://www.neon-iron.org/). NEON seeks to establish a continent-wide 
distribution of environmental monitoring infrastructure, including eddy 
flux towers, sensors for air, soil, and surface water temperatures, 
windspeed and direction, precipitation, and barometric pressure, 
photosynthetically active radiation, plant transpiration, and 
atmospheric composition (CO, CO<INF>2</INF>, O<INF>3</INF>, others). 
Measuring biological response to climate and climatic variation, 
including the spread of invasive species and infectious diseases, is 
central to this program. The IRON application seeks to install the 
monitoring infrastructure on BLM land in the Utah West Desert. IRON 
asks how ecosystems and their components will respond to changes in 
natural and human-induced climate across spatial and temporal scales 
and what system attributes best predict sensitivity to climatic 
factors. BLM scientists are participating in the design of experiments 
specific to land management in the Great Basin.
    GBRI is representing the BLM in the development of the ``Great 
Basin Research and Management Partnership'' to improve communication 
and research to better meet manager needs across the Great Basin. Over 
200 managers, scientists, non-government organizations and private 
citizens met in Reno, Nevada, in the winter of 2006 and identified 
climate change, invasive species, and wildfires as key challenges in 
the Great Basin where better linkages between scientists and managers 
would prove beneficial. GBRI is also an active participant in the 
development of the Great Basin Environmental Program, sponsored by 
University of Nevada Reno,
    The BLM is an active participant in other research that has or is 
producing data and analysis with application in adaptation to climate 
change. These efforts include the National Center for Ecological 
Analysis and Synthesis Nevada Conservation Area Design, the Joint Fire 
Science-Funded Sagebrush Steppe Treatment Evaluation Project and the 
USDA-funded Integrating Weed Control and Restoration for Great Basin 
Rangelands.
Restoration Implementation
    Restoring native vegetation where conversions to exotic annual 
grasses or noxious weeds have occurred will provide greater plant 
community stability under an environment influenced by climate change. 
In addition, carbon sequestration will be enhanced in native 
communities compared to annual grass communities that reburn at 
frequent intervals (Bradley et al. 2006). Nearly 25 million acres of 
public lands in the Great Basin have some cheatgrass as a component of 
the community (BLM 2000).
    The Department of the Interior's Healthy Lands Initiative (http://
www.doi.gov/initiatives/healthylands.html) is providing support and 
funds to implement restoration projects at the landscape level with 
multiple partners. All of the projects implemented under this 
Initiative will promote the maintenance or restoration of healthy 
native plant communities with the increased ability to survive or adapt 
to anticipated changes in the environment in the future. Three of the 
six geographic areas receiving Healthy Lands Initiative funding are in 
the Great Basin which provides multiple opportunities to improve or 
maintain land health in this important landscape.
    The increased focus on native seeds and seeding equipment 
improvement supported by GBRI will improve success and efficiency in 
the Emergency Stabilization and rehabilitation (ES&R) program. ES&R 
seeding treatments after wildfires will not result in the restoration 
of fully functioning native plant communities, however these treatments 
will start the process toward site stabilization and provide future 
opportunities for restoration to native or desired plant communities if 
a restoration funding is available.
    GBRI will continue to serve as a focal point for the application of 
science and technology to successfully restore Great Basin rangelands. 
As the science and predictive ability of climate change models 
continues to evolve, GBRI will provide a basin-wide perspective on this 
issue to inform BLM managers of appropriate restoration strategies.
                                summary
    Based on studies by the U.S. Geological Survey and others, the 
Great Basin is experiencing climate change effects that are potentially 
expected to increase in the future and may increase impacts of invasive 
species and wildfires. Managers in the Great Basin are cognizant of 
some of these changes but the magnitude of the changes expected in the 
future probably exceed the capability of this fragile desert to adapt 
in full to the changes. However, the BLM has a long history of adapting 
to environmental variability, so mechanisms are in place to adjust 
management to accommodate for some of the projected changes. GBRI and 
the BLM will maintain a close watch on invasive species and climate 
change in the Great Basin and the science that U.S. Geological Survey 
and others provide. GBRI will continue to assist managers in the 
adaptation process by supporting the science and technology required to 
maintain or restore healthy plant communities.
    This concludes my testimony. I would be happy to answer any 
questions you may have.

    Senator Wyden. Thank you. Thank you both for your 
testimony, and let me start by telling you what an 
extraordinary session we are part of today.
    We have the Senate majority leader sitting in the front 
row, totally involved in this kind of effort.
    What I want to do is have us walk out of here this morning 
with some specific steps that the Senate can take under the 
majority leader's leadership that will allow us to tackle it. 
I've got some questions and then I'll give you a chance to make 
an assessment at the end.
    Starting with you Mr. Pellant, our understanding is that in 
the progress report on the initiative's 2001 assessment that, 
quote, no permanent account exists for restoration, the Great 
Basin Restoration Initiative is not a separate line item in the 
budget.
    Now, piecing together a budget for a short period of time 
is a pretty precarious exercise, and what I think is needed is 
a consistent source of funding so that you can have proper 
prioritization, planning and project work, and that's 
essentially been what the report has said. So now we're 8 years 
into the initiative, and it's my understanding that the 
initiative is still, quote, piecing together a budget.
    So tell us by way of starting this, how the budget does 
work from the initiative and what is precisely the story with 
respect to the financing.
    Mr. Pellant. Yes. Thank you, Mr. Chair.
    Basically, the Great Basin Restoration Initiative is 
serving as an umbrella with other programs that do fund 
restoration through BLM.
    For example, I previously mentioned the Healthy Lands 
Initiative, there are funds proposed in the budget for BLM, I 
think fifteen million dollars that would go to underground 
restoration. Three of the Healthy Lands Initiatives, both of 
the areas are in the Great Basin, so a large part of the Great 
Basin would have a potential to utilize these funds to do the 
proactive restoration.
    Also our fields program under the National Fire Plan, a lot 
of the activities taken there do promote recovery of healthy 
lands as well, so I guess in terms of the Great Basin 
Restoration Initiative the funding was primarily through my 
position, and then we have a core team of other BLM 
representatives from each State, some of our more national and 
regional offices, and we kind of function as a group, then, to 
try get the message out to provide technical expertise, so I 
guess--I guess if that answers your question. If not I'll be 
happy to----
    Senator Wyden. No, it still leaves me troubled.
    There is no permanent account for restoration as of today, 
is that correct? You just kind of look at these various budgets 
and sometimes there will be the money and sometimes there 
aren't. There's no permanent account today for restoration.
    Mr. Pellant. That is correct.
    Senator Wyden. Now, the 2001 report, and this is something 
important to focus on, I represented, two out of the three 
Oregon BLM offices in the Great Basin who weren't participants 
in the initiative. Has that changed? Are they involved out of 
there now?
    Mr. Pellant. Again, we, through our Great Basin Restoration 
Initiative core team includes a Oregon representative, and then 
that representative then works with the field offices to 
incorporate the strategies, the technical expertise that the 
Great Basin Restoration Initiative basically provides, so I 
think all of the offices are aware of the initiative and it's 
just various levels of participation, but again, since there 
isn't funding for implementation, it's not, you know, a direct 
linkage, so to speak, it's more through providing science, 
technical expertise and support to carry out activities funded 
through other the programs.
    Senator Wyden. The testimony submitted by Commissioner 
Nichols from my home State discusses the Medusahead challenge, 
which was organized in 2004 under the leadership of the 
Agricultural Research Service. To what extent has the Great 
Basin Restoration Initiative coordinated with that challenge?
    Mr. Pellant. Is that the program that Doctor Roger Sealy 
had initiated?
    Senator Wyden. I think that's part of it.
    Mr. Pellant. Yes.
    Actually I participated and wrote a letter of support for 
that initiative; just actually received word yesterday from 
Doctor Sealy that funding was approved, roughly three million 
dollars of the five million requested.
    So again, this is another program that offers a lot of 
opportunity and hope to apply good science to do restoration 
and to do it strategically within the Great Basin, and GBRI is 
an active member of that team.
    Senator Wyden. A recent report from the general accounting 
office is very critical of the land management agency's lack of 
planning on the climate change question.
    That was mentioned by the majority leader and it's a view 
that I share.
    Now, what the Government Accountability Office has found 
was the grassland resource managers agreed that climate change 
is not on the agency's agenda as a significant policy concern.
    Can you tell me what the Great Basin Initiative is doing to 
get an aid to land managers on the climate change question?
    Mr. Pellant. Sure.
    I guess the first thing, a few years ago we just did a 
graph paper on considerations for climate change for land use 
planning, and that was distributed widely in the Great Basin.
    Currently the Secretary of the Interior has a committee of 
DOI agencies, representatives working on climate change, and 
one of the strong components of--of those committees is how can 
we incorporate those into the management including the 
planning.
    So I think, you know, it hasn't been as far forward on the 
radar screen, but I think that's changing fairly rapidly now 
with the DOI committee working on it, and just the 
acknowledgement and some of the work going on in the Great 
Basin in terms of adjusting----
    Senator Wyden. When do you think that committee would come 
in with an actual plan that would assist the land managers on 
the climate change issue?
    Mr. Pellant. I'm a member of one of the subcommittees, and 
I believe the target decline was by the end of this year.
    Ms. Belnap. Yes.
    Mr. Pellant. So that's when the first report there, a draft 
out for review from the internal committee right now, and I 
think it's moving--moving ahead to meet that deadline.
    Ms. Belnap. January.
    Senator Wyden. We'll give you a little bit of a break, Mr. 
Pellant, with some questions for you, and we'll get back to you 
before we wrap it up.
    Doctor Belnap, on the climate change and wildfire issue, we 
have seen the unprecedented level of wildfire activity in the 
Great Basin. This began up in Oregon, and Nevada shares, what 
do the climate models tell us about future wildfires.
    Ms. Belnap. As my testimony indicated, there are a lot of 
reasons to expect that this will increase.
    The biggest reasons is that we will have drier soils, we'll 
have drier fuels, and all of the indications is that invasive 
plants will be facilitated by land use, by rising levels of 
CO<INF>2</INF>, and all of the other reasons that they're 
invading currently, and so the model would project that they 
will increase.
    Senator Wyden. Now, some of the invasive grasses in the 
Basin respond more favorably to high level carbon dioxides than 
do most of the native grasses.
    Tell us a little bit about how that, you know, plays out, 
and particularly how climate change in effect worsens those 
kind of invasions.
    Ms. Belnap. There's a bunch of factors, and CO<INF>2</INF> 
is just one, because the plants have to get established too, 
and CO<INF>2</INF> facilitates their growth. So first you have 
to have the conditions that get them established.
    That's more in terms of the soil moisture levels, the 
disturbance factors, other things like that, and actually soil 
chemistry and physical structure when we determine where they 
can invade or not, and I don't want to leave the impression the 
entire Great Basin and Colorado Plateau Region are evadable, 
because they're not.
    There are certain areas that we can triage in this sense. 
But once they get established due to these factors, which are 
all likely to increase as well, which is why we expect to see 
then the CO<INF>2</INF> comes into play. Annual plants respond 
much more--what--they respond in a greater fashion than 
perennial plants. It's not just an annual grass, it can be any 
annual.
    So other invasive annuals are also expected to increase 
with the CO<INF>2</INF>, and so there's this interplay of this 
annual versus perennial.
    Now, as Mike pointed out, though, we still have very little 
indications that--that Cheatgrass actually out-competes the 
native plants given the right plan, and so you get the 
invasion. I think we can expect to see landscapes for the 
interstate filled with Cheatgrass. This does not mean that we 
have to lose our native perennial component.
    Senator Wyden. With respect to the history of invasive 
grasses, what are the historical mechanisms that in effect have 
facilitated all of this?
    I gather from your testimony and a number of the experts 
that there really are a set of historical mechanisms that 
facilitated the invasion of all of these exotics and annual 
grasses. Tell us a little about that.
    Ms. Belnap. There is. It's also still a little puzzling.
    Most of the people have said that that annual--well, first 
the romas specifically was introduced in about five places 
throughout the west, and they were not all accidental.
    It spread out from there. One thing that's of importance 
is--Oh-oh. I just lost my train of thought. Could you ask me my 
question again? I'm sure that's really unusual.
    Senator Wyden. Yes.
    I think what we're trying to is get a bit of the history, 
because you and the other researchers in the field make a 
compelling case, that all of this is part of a historical, you 
know, evolution, that there are historical mechanisms that are 
in effect facilitating the invasion of all of these exotic 
grasses, and I think it would be interesting to have that on 
record.
    Ms. Belnap. So basically everyone thought it took surface 
disturbance to get these invasive grasses to get established in 
the first place. That said, we have plenty of places where that 
could not occur. There's not the surface disturbance, and these 
areas are still reinvade.
    So my lab has actually spent a lot of time asking this 
question about what makes an area evadable or not, and one 
thing, really, is climate. It has a huge impact on whether or 
not these plants can invade, and so one of the things if you 
look back in the history, in the front of the invasion what has 
happened is invasions have gone just wild in the years. 
Cheatgrass germinates in the fall.
    If we have three, four, 5 weeks of good, constant rains, 
they don't need to be heavy rains, just good constant rains in 
those falls, you will have huge germination events.
    So there's another--it actually ties together. There's two 
ways. Basically these guys need soil, they need the seeds, they 
need to stay moist to germinate. They can either be covered 
with soil through surface disturbance, or they can get a lot of 
rain. Either thing works, and so I think part of the big 
historical picture here that we've always been confused in 
saying oh, it takes disturbance to germinate; it also can be 
climate; it's just keeping those seeds healthy, and once they 
do, then they really go to town and that creates this conflict 
that we see in the literature about well, it can't invade in 
undisturbed areas; they have to be invasive in disturbed areas.
    But this means probably in the future what we're looking at 
are those extreme areas is when the Cheatgrass is really going 
to take off, because another thing to keep in mind is every 
time it rains, it may not be enough rain to sustain a plant, 
but it releases nutrients and those nutrients build up so when 
it does rain to germinate those plants, they have a nutrient-
rich environment to germinate in.
    Senator Wyden. What would you say are the most significant 
influences on invasive species, say in the next 20 years?
    Ms. Belnap. I think it's going to be that relationship 
between those climate years where things were perfect, and soil 
surface disturbance. It's going to be how those two interact, 
and then fire is the other thing was that we have to bring into 
it because fire also brings soil nutrients to the surface, and 
so we see a real enhancement of Cheatgrass invasion after fire, 
so that can come, and that's very much a climate and vegetation 
feedback, so it's going to be those three factors.
    Senator Wyden. Let's wrap up this panel with this question 
for you, Mr. Pellant, and then for you, Doctor Belnap.
    Let's say our roles are reversed, and you are chair of the 
Subcommittee on Forestry and Public Lands, and your close 
friends, the Senate majority leader, the audience is engrossed 
by this, and as chair of this subcommittee you could recommend 
a couple of things to the Senate majority leaders that would 
really help the Basin.
    What would, say, two things be, concrete steps, Mr. 
Pellant, that would make a big difference if we pursue them?
    Mr. Pellant. That's a tough question, and I never wanted to 
get into politics.
    [Laughter.]
    Senator Wyden. We'll let you do the role reversal for 
purposes of this question, and then you can go back to doing 
the good work.
    Mr. Pellant. I think one obvious need is just resources to 
address these issues. I like to talk about--we don't want to 
look back twenty years from now and talk about the good old 
days when Cheatgrass was our problem because we've got other 
weeds, we've got other issues interacting with climate change 
that our environment is even more degraded, so I think 
resources, both the science to support better decisions is 
important, and I think the ability to apply proactive 
restoration treatments; it's kind of the ``pay now or pay more 
later.''
    We can go out and put out fires, we can kill weeds, and we 
can do it time after time, versus going out and getting in an 
area that's big, so to speak, so if we do have a disturbance 
like fire or climate change, which becomes more of an impact, 
we've got a diverse community to support not only the ecology 
of the area but support the proper management also accommodates 
all of the uses.
    Senator Wyden. On those proactive treatments, which would 
you recommend?
    Mr. Pellant. I think a lot of our priorities now are just 
again to maintain those areas that are still functioning.
    It's much cheaper and much better ecologically and 
economically in the long run to maintain community, keep fire 
out of it; fire is going to bring in Cheatgrass, so I think 
that idea of fuels, management on those perimeters is very 
important, just like we do on the wild land urban areas, and 
then again that idea is strategic; if we dole out money and 
bring it down to our smallest administrative units, we tend to 
just get back to the postage stamp approach.
    What we're doing with this healthy public land use is 
trying to work together to identify those really critical 
areas, and not just fix one problem, but kind of make the area 
whole, so to speak, if there's riparian problems, weed 
problems, Cheatgrass problem, and try to fix an area and then 
move on, but do that in a strategic, priority-based manner.
    Senator Wyden. Doctor Belnap, the roles are reversed.
    Ms. Belnap. Do I have to wear a tie?
    Senator Wyden. No, you don't have to wear a tie.
    I can see your great affection of both of you for politics. 
This will a one-time deal, so just pretend you're chair of the 
subcommittee.
    Ms. Belnap. I think our biggest need is understanding.
    We really are just in beginning stages of understanding 
what drives conditions that are invasive, and we need to 
understand the feedback groups, we need to understand more 
about what's creating these problems. As was pointed out 
earlier, we're treating the symptoms. We really need to 
understand the mechanisms behind the problem. To me that takes 
a very substantial, planned, carefully thought-out and 
continuing effort, and with coordination we've got all of these 
efforts going on all over the map.
    One thing that I can see that we really need is to get 
everyone thinking the same thoughts along the same path, and 
getting them to talk to each other and that includes the 
managers, it includes the policymakers, it includes the 
scientists.
    But to really--it's--of course, I'm going to sound like I'm 
talking job security--but there's so much science that needs to 
be done for us to really make informed decisions. You know, 
right now we're just doing whatever we think is going to work 
because it's all we know. We could find out a whole lot more.
    We really--and I'm very optimistic about this, you know, I 
don't think it's hopeless at all, I think that we really--we're 
an incredibly ingenious species, and I think that we can really 
take this on and fix it.
    Senator Wyden. Won't it help to get the proper 
prioritization to have that separate line item in the budget 
through the Restoration Initiative, that's what the progress 
report says. The progress report says specifically you get it, 
the separate line item on the budget, and that's something that 
will really be useful with respect to proper prioritization and 
planning.
    Ms. Belnap. I don't know about the best techniques to reach 
the goal, but to me the goal is to get that long-termed 
sustained effort that's coordinated and, you know, if that's 
the best way, I don't know that.
    Senator Wyden. Fair enough.
    Ms. Belnap. But, you know, we certainly need that sustained 
effort.
    Senator Wyden. Good.
    Thank you both for your good work, and know that you're 
putting a lot of effort into this cause, and the time is short. 
I think that was the point of the majority leader today. It's a 
point that I've tried to emphasize, this is something that you 
can't put off, and we thank you both for your good work.
    Let's go to our next panel, the Honorable Dan Nichols, from 
my wonderful State, Harney County; Patricia Mulroy, from the 
Southern Nevada Water Authority and Doctor Boyd Spratling of 
the Nevada Cattlemen's Association.
    Dan, welcome.
    Mr. Nichols. Thank you.
    Senator Wyden. Thank you for being here, Ms. Mulroy, and do 
the Nevada cattlemen have a lot of involvement with Doctor 
Skinner in raising cattle?
    Mr. Spratling. Yes, we do, I saw her a couple of weeks ago.
    Senator Wyden. Very good. All right, let's begin with you, 
Mr. Nichols.

  STATEMENT OF DAN NICHOLS, RANCHER AND COUNTY COMMISSIONER, 
                       HARNEY COUNTY, OR

    Mr. Nichols. Thank you, Senator, for the opportunity to 
discuss the future environmental concerns affecting the Great 
Basin, and thank you for your support and what you have done 
for us in Harney County and the Great Basin and the efforts 
that you have put into it and your attempt to understand these 
complex issues. Thank you.
    As a rancher and a county commissioner I have the 
opportunity to attend lots of meetings here and lots of 
opinions, being around scientists of different levels. I've 
come to believe that continued exponential spread of Medusahead 
rye is absolutely the paramount environmental threat to the 
Great Basin and the surrounding ecosystems.
    The Medusahead invasion has the potential to devastate the 
economics of rural western communities and create environmental 
damage that will have negative consequences to the land and its 
citizens for generations in the future.
    Medusahead has invaded over 20 million acres throughout the 
western States, with the majority of the invasion occurring on 
public lands. Medusahead is an alien invasive weed that 
originated from the Mediterranean region.
    It was first recorded in Oregon in the 1880s and was found 
throughout the Willamette Valley and had spread into Idaho by 
1940. By 1995 it was estimated that Medusahead had occupied one 
million acres in Idaho. It expanded south from Oregon into 
California, and it is thought that now may have successfully 
invaded all suitable sites within California that are 
approximately five million acres.
    Medusahead has mainly invaded public and private land 
within the Great Basin, but has also created large, continuous 
infestations in ten States and is now being reported to be in 
New York and Pennsylvania as well. Invasions have been 
expanding exponentially since 1972 and now are expanding faster 
than nearly all other invasive weeds in the United States.
    Medusahead basically thrives in clay soils, but I just 
learned the other day they're finding infestations in loam 
soils as well, which exacerbates the problem.
    The climate precipitation patterns of the Great Basin are 
very conducive to Medusahead. Harney County, as an example, has 
an average precipitation level of eleven inches a year, with 
that coming mostly in the spring and fall in the form of snow 
and fall rains.
    Harney County is the largest county in Oregon with a land 
mass of 10,121 square miles, it's larger than six States in the 
union, and the ownership is 27 percent privately owned property 
versus 73 percent Federal and State ownership.
    Our local NRCS maps, soil maps, indicate that an excess of 
70 percent of the soil types in Harney County are conducive to 
the establishment of Medusahead monocultures, so that's 
basically what the land mass, land mass of the Federal and 
State property in Harney County. It has, needless to say, it 
has a devastating impact on our local cattle industry, 
agricultural industry; it also affects land that provides 
habitat for mule deer, elk, sage grouse, native redband trout 
and bighorn sheep.
    All of these species and more are absolutely susceptible to 
the detrimental effects of Medusahead monocultures and are 
negatively juxtaposed with current efforts and dollars being 
spent by the government agencies to protect them and enhance 
their environments.
    Medusahead basically deteriorates healthy intact shrub-
steppe communities into annual grass monocultures. It grows for 
short periods in the spring and fall permanently changes the 
nutrient and hydrological cycles while accelerating erosion. 
The thick mat of fine litter is slow to decompose because of 
its 10 percent silica composition, which is basically glass. 
This composition is the reason for an eighty percent reduction 
in grazing value, resulting in large amounts of fine fuels for 
intensive wildfire occurrences.
    The Federal Interagency Committee for the management of 
noxious weeds reports that annual grass infestations increase 
the frequency of major wildlife--excuse me--wildland fires to 
every 3 years from every sixty years, and we're starting to see 
that within major portions of the Western States.
    This past summer in excess of 130,000 acres burned, with an 
estimated cost in excess of eight million dollars in 
suppression efforts just in Harney County alone. These cost 
figures do not include the cost to private landowners from 
timber and grazing loss, herd reductions, supplemental fees and 
other associated business losses. Basically Medusahead promotes 
fire, and fire promotes Medusahead.
    Wildfire destroys the sagebrush portion of the plant 
community. Sagebrush is host to a variety of wildlife, only one 
of which is the Sage Grouse. Sage Grouse is considered by some 
to be the key indicator species for the sagebrush steppe 
ecosystem of the Great Basin. It is a current example of the 
kinds of wildlife destruction that is created by this invasive 
weed.
    The US Fish and Wildlife Service conducted a 12-month 
finding for Greater Sage Grouse, and the Conservation 
Assessment of Greater Sage Grouse and Sage Grouse habitats. The 
report concluded that two primary habitat threats are fires and 
invasive species such as Medusahead. All of these and many 
other ecological impacts translate into direct economic impacts 
on the Great Basin, where our livelihoods depend on a 
sustainable natural resource base. Watersheds are at risk, 
wildlife habitat is being destroyed, riparian areas are 
affected and frequent fires continue to accelerate the invasion 
process of Medusahead costing the Federal Governmental millions 
of dollars in suppressive activities.
    The livestock industry is at risk and is the dominate 
industry throughout much of the Great Basin which supports the 
rural infrastructure and economies in nearby towns.
    Medusahead has a direct and negative impact on hunting and 
other outdoor recreation opportunities that also comprise a 
portion of our local economies. Medusahead basically is an 
invasive weed that has no redeeming values. Medusahead trumps 
Cheatgrass, Juniper, the other invasive weeds, and the fact 
that it is a horribly tenacious weed and creates strictly an 
absolute monoculture. Medusahead will out-compete Cheatgrass, 
and with Cheatgrass there is some forage value, some habitat 
value. Medusahead, basically there is none. Because of its 
chemical composition and physiology, it essentially has no 
grazing or habitat value for the wildlife or domestic 
livestock.
    Due to the spring and fall growth patterns, it permanently 
changes the nutrient and hydrological cycles. Long-term 
negative effects on watershed and water resources are a logical 
outcome of the invasive Medusahead monoculture.
    Considering the plausible desertification trend of 
Medusahead and the region of the world that it originated from, 
are we possibly heading toward the desert landscapes of the 
mid-east as a result of the continued expansion of the 
Medusahead monocultures within the Great Basin? With that 
serious possibility and that reality, a group of local land 
managers, private landowners, researchers, scientists, 
educators and conservationists from six western States of 
Oregon, Washington, Idaho, Nevada, California and Utah met in 
Burns, Oregon in 2004 and created the Medusahead Challenge 
under the leadership of the USDA Agricultural Research Service 
in Burns.
    From that initial meeting over 150 people from the diverse 
entities mentioned above have created a working partnership and 
developed a strategic plan to deal with Medusahead from a 
comprehensive, holistic and systems approach.
    The mission of the Medusahead Challenge is to enhance and 
coordinate education, research and management of Medusahead 
across the Western States. This outcome based program outlines 
14 separate large scale management activities, 27 research 
projects and 14 educational programs necessary to protect the 
Great Basin.
    On behalf of the Medusahead Challenge and Harney County, I 
would request your continued help to fully implement this plan. 
This group has been working successfully in a collaborative 
process combining private landowners, private business, 
scientific expertise, Federal agencies and conservation groups.
    Over time it has become clear that a large well-coordinated 
holistic approach will be required if they are to make timely 
progress managing Medusahead and mitigating the ecological and 
economic impacts of the Great Basin associated with this 
invasive weed.
    The Medusahead Challenge is well prepared and structured to 
implement the most ecologically based comprehensive program 
possible. Dedicated people have been working in a collaborative 
effort for the past 4 years, but now need your help for some 
long-term funding for the Medusahead Challenge through the USDA 
Agricultural Research Service in Burns.
    Once again, an appropriations fund request for 2008 has 
been submitted for a total of one million dollars. This is a 
motivated consortium of people that have been collectively 
leveraging a variety of resources to meet the goals and 
objectives of the plan. Their continued advance in an effort to 
combat this major threat to the ecological and economic well-
being of the Great Basin could be enhanced with your support.
    [The prepared statement of Mr. Nichols follows:]
  Prepared Statement of Dan Nichols, Rancher and County Commissioner, 
                           Harney County, OR
    Thank you for the opportunity to discuss future environmental 
threats to the Great Basin ecosystem. As a rancher and conservationist 
I believe that the continued, exponential spread of medusahead is the 
paramount environmental threat to the Great Basin and surrounding 
ecosystems. The medusahead invasion has the potential to devastate the 
economies of rural western communities and create environmental damage 
that will have negative consequences to the land and its citizens for 
generations into the future. Medusahead has invaded over 20 million 
acres throughout the western States with the majority of the invasion 
occurring on public lands.
    Medusahead thrives in the clay soils, climate and precipitation 
patterns of the Great Basin. Hanley County, as an example, has an 
average precipitation level of 11 inches a year with most of that in 
the form of snow and spring rain. Harney County is the largest county 
in Oregon with a land mass of 10,121 square miles and is larger than 
six States in the Union. Ownership is comprised of 27% private and 73% 
federal and state ownership. Local NRCS soil maps indicate that an 
excess of 70% of the soils in Harney County are conducive to the 
establishment of medusahead monocultures. That is basically equal to 
the landmass of the federal and state rangelands that are an integral. 
part of the counties livestock industry. It is also land that provides 
habitat for mule deer, elk, sage gouse, native redband trout and 
bighorn sheep. All of these species and more are absolutely susceptible 
to the detrimental effects of medusahead monocultures and are 
negatively juxtaposed with current efforts and dollars being spent by 
government agencies to protect them and enhance their environments.
    Medusahead is an alien invasive weed originating from the 
Mediterranean region. It was first recorded in Oregon in the 1880's and 
was found throughout the Willamette Valley and into Idaho by 1940. By 
1995 it was estimated that medusahead occupied 1 million acres in 
Idaho. It expanded south into California and may have successfully 
invaded all suitable sites within California at approximately 5 million 
acres. Medusahead has mainly invaded public and private land within the 
Great Basin but it has also created large continous infestations in 10 
states including New York and Pennsylvania. Invasions have been 
expanding exponentially since 1972 and are now expanding faster than 
nearly all other invasive weeds in the United States.
    Medusahead deteriorates healthy intact shrub-steppe communities 
into annual grass monocultures. It grows for short periods in. the 
spring and fall and permanently changes the nutrient and hydrological 
cycles while accelerating erosion. The thick mat of fine litter is slow 
to decompose because of the 10% silica composition (the main compound 
of glass). This composition is the reason for an 80% reduction in 
grazing value resulting in large amounts of fine fuels for intensive 
wildfire occurrences. The Federal Interagency Committee for the 
Management of Noxious Weeds reports that annual grass infestations 
increase the frequency of major wildland fires to every 3 years from 
every 60 years. This past summer in excess of 130,000 acres burned with 
an estimated cost in excess of eight million dollars in suppression 
efforts occurred in Harney County alone. These cost figures do not 
include the cost to private landowners for timber and grazing loss, 
herd reductions, supplemental feed and other associated business 
losses. Medusahead promotes tire and fire promotes medusahead.
    Wildfire destroys the sagebrush portion of the plant community. 
Sagebrush is host to a variety of wildlife, only one of which is the 
sage grouse. Sage grouse is considered by some a key indicator species 
of the sagebrush steppe ecosystem of the Great Basin. It is a current 
example of the kinds of wildlife destruction that is created by this 
invasive weed. Sage grouse were nearly placed on the threatened and 
endangered species list in 2006. The U.S. Fish and Wildlife Service 
conducted a 12 month finding for Greater-Sage grouse and the 
Conservation Assessment of Greater Sage grouse and Sagebrush Habitats. 
They reported that two primary habitat threats are fires and invasive 
species such as medusahead.
    All of these and many other ecological impacts translate into 
direct economic impacts in the Great Basin where our livelihoods depend 
upon a sustainable natural resource base. Watersheds are at risk, 
wildlife habitat is being destroyed, riparian areas are affected and 
frequent fires continue to accelerate the invasion process costing the 
federal government millions of dollars in suppression activities. The 
livestock industry is at risk and is the dominate industry throughout 
much of the Great Basin which supports the rural infrastructure and 
economies of nearby towns. Medusahead has a direct and negative impact 
on hunting and other outdoor recreation opportunities that also 
comprise a portion of our local economies.
    Medusahead is an invasive weed that basically has no redeeming 
values. It is a tenacious weed that has the ability to expand and 
thrive under extreme conditions. It outcompetes other plant species for 
available water and nutrients. Because of its chemical composition and 
physiology it essentially has no grazing or habitat value for wildlife 
or domestic livestock. Due to the spring and fall growth pattern it 
permanently changes the nutrient and hydrological cycles that are 
considered to be the initial stages of desertification by many 
scientists. Long term negative effects on watershed and water resources 
are a logical outcome of an invasive medusahead monoculture. 
Considering the plausible desertification trend of medusahead and the 
region of the world that it originated from are we heading toward the 
desert landscapes of the mid-east as a result of the continued 
expansion of medusahead monocultures in the Great Basin?
    With the serious possibility of that reality a group of public land 
managers, private landowners, researchers, scientists and educators 
from six western states of Oregon, Washington, Idaho, Nevada, 
California and Utah met in Burns, Oregon in 2004 and created the 
Medusahead Challenge under the leadership of the USDA-Agricultural 
Research Service in Burns. From that initial meeting over 150 people 
from the diverse entities mentioned above have created a working 
partnership and developed a strategic plan to deal with medusahcad from 
a comprehensive, holistic and systems approach. The mission of the 
Medusahead Challenge is to enhance and coordinate education, research 
and management of medusahead across the western states. This outcome 
based program outlines 14 separate large-scale management activities, 
27 research projects and 14 educational programs necessary to protect 
the Great Basin. On behalf of the Medusahead Challenge and Harney 
County I request your help to fully implement this plan.
    This group has been working successfully in a collaborative process 
combining private landowners, private business, scientific expertise, 
federal agencies and conservation groups. Over time it has become clear 
that a large well coordinated, holistic approach will be required if 
they are to make timely progress managing medusahead and mitigating the 
ecological and economic impacts for the Great Basin associated with 
this invasive weed. The Medusahead Challenge is well prepared and 
structured to implement the most ecologically based comprehensive 
program possible. Dedicated people have been working in a collaborative 
effort for the past three years but now need your help through some 
long tens funding for the Medusahead Challenge through the USDA-
Agricultural Research Service in Burns, Oregon. Once again, an 
appropriations fund request for 2008 has been submitted for $1,000,000. 
This is a motivated consortium of people that have been collectively 
leveraging a variety of resources to meet the goals and objectives of 
the plan. Their continued advance in an effort to combat this major 
threat to the ecological and economic well being of the Great Basin 
could be enhanced with your support.
    Thank you for your time and your consideration of this request.

    Senator Wyden. Very good. Thank you, we'll have some 
questions for you in a moment.
    Ms. Mulroy.

STATEMENT OF PATRICIA MULROY, GENERAL MANAGER, SOUTHERN NEVADA 
                 WATER AUTHORITY, LAS VEGAS, NV

    Ms. Mulroy. Mr. Chairman, I'd like to thank you for the 
opportunity to be able to testify here today, and I'd 
particularly like to thank you and our Senate majority leader, 
Senator Reid, for allowing me this opportunity to bring out of 
the shadows an issue that I feel will define western culture 
and the culture in the western United States for this coming 
century.
    My name is Pat Mulroy, and I'm the general manager of the 
Southern Nevada Water Authority, and I've been involved in 
water issues in Southern Nevada and the Colorado River Basin 
for over 20 years.
    I would like to offer some perspective on an issue that has 
far-reaching consequences on the future of existing water 
supplies in the Western United States over the next century; 
that issue, quite simply stated, is climate change. Perhaps 
nowhere in the west are the consequences of climate change more 
manifest than in the Colorado River Basin, which abuts the 
Great Basin to the east and to the south, where a sustained 
drought has altered our historical understanding of the river.
    It's forcing communities such as ours to adjust 
infrastructure plans, improve water efficiency and develop 
additional unused water supplies to maintain the reliability of 
our delivery system, and all of this has happened in just a 
matter of a few years. Because of its many storage facilitates, 
the Colorado River has always been considered a very reliable 
water supply. However, this quickly changed as the river 
entered what soon became the worst drought in recorded history. 
The impacts have been daunting.
    Since 2001 inflows to Lakes Powell and Mead have been below 
average for all but 1 year, with 2002 being the worst thus far 
at 25 percent of average, inflows into Lake Powell over the 
past 7 years have been 61 percent of normal.
    Today both Lakes Powell and Mead sit at roughly 49 percent 
capacity, a combined loss of around 25 million acre feet of 
water in less than a decade. It's sobering to note that Lake 
Mead would probably be dry today, were it not for the Glen 
Canyon Dam and Lake Powell. Almost two million in the Las Vegas 
valley depend on Lake Mead for this daily water. Millions of 
others depend on it depend on it in Arizona, California and the 
country of Mexico. Because of the drought Southern Nevada has 
had to take steps to protect the operation of its two drinking 
water intakes in Lake Mead. Both are threatened by the lake's 
steadily declining water levels. The upper intake could be out 
of service as soon as 2010.
    To address this situation we're proceeding as quickly as 
possible with the construction of a third intake. This new 
intake is not expected, however, to be completed before 2013. 
To address the loss of capacity that will occur at lake levels 
fall below the upper intake, we are augmenting the pumping 
capacity of our lower intake and have constructed bypass 
pipelines at our water treatment facility. This will allow our 
lower intake to deliver adequate water supplies while the third 
intake is still being constructed.
    To further offset the drought's impact, Southern Nevada has 
implemented one of the most aggressive water conservation 
programs in the country. We adopted a comprehensive drought 
response plan initially that has actually resulted in permanent 
changes to how we use water.
    The plan involves the mix of regional policy, education, 
pricing and incentives, including increases to tiered water 
rates, prohibition of turf in front yards and new developments; 
restrictions on time of day of watering, innovative 
conservation advertising and extensive water waste enforcement. 
The centerpiece of this new ethic is our Water Smart Landscapes 
Program. With money derived from local connection charges, this 
program provides water customers with rebates for removing turf 
from their landscaping. To date it has provided more than 
$85,000,000 in rebates and has resulted in our use for it 
declining by eighteen billion gallons and this despite nearly 
330,000 new residents and 40,000,000 annual visitors.
    Most importantly, conservation has evolved from a temporary 
drought response into a permanent way of life in Southern 
Nevada. As we transformed our approach to conservation, the 
seven States of the Colorado River Basin came together in 
response to the drought and embarked on negotiations to 
establish guidelines for dealing with shortage.
    After years of discussion, the State submitted a 
comprehensive proposal to the Secretary of Interior in 2006 
that establishes shortage guidelines and creates incentives for 
conservation and efficiency, and I'm happy to say that Monday 
the final pieces of that were put together to where it's now 
final. The proposal is a milestone in the history of the river.
    For the first time a shared shortage amongst States and 
cities has been established, one that recognizes the 
interdependent nature of the river's users and the need to 
share impacts. This would not have been possible 10 years ago. 
To increase flexibility on the river, the seven Basin States 
are promoting changes to reservoir operations, interstate 
groundwater banking and other cooperative efforts.
    For example, Nevada is helping to fund construction of a 
reservoir in California in return for a one-time supply of 
water. We've also funded a study of future supply options, 
predominantly desalination. Beyond these efforts, Southern 
Nevada is moving forward to develop an alternate water supply 
that is hydrologically independent of the river. That supply is 
comprised of unused groundwater and several hydrographic basins 
in Eastern Nevada.
    This year we were granted the right to 60,000 acre feet in 
Spring Valley, the pumping of which we must step into 
gradually.
    To protect the environment, we've acquired seven large 
ranches in the area and have entered into a process with four 
agencies of the Department of Interior to monitor and now 
manage the valley's natural resources and the rural lifestyle. 
An integral part of our effort is to work with local, State and 
Federal agencies to protect the Great Basin from some of the 
threats that you've heard outlined here this morning.
    Although these efforts--through these efforts we can 
responsibly develop this essential water supply. Let me 
underscore the word ``essential.'' Today approximately 90 
percent of Southern Nevada's water supply comes from the 
Colorado River. Further shortfalls in the Colorado River will 
jeopardize this community's water supply unless we develop 
alternate supplies.
    In a community that already reuses 100 percent of its waste 
water, nothing short of an alternative supply will protect us 
from this risk. We've noted for over a decade in our water 
resource plan that conservation is the cornerstone, but it 
cannot be the only solution. The reliability of our water 
system and its supply are equally important. To solve the water 
resource challenges posed by climate change we will need 
additional supplies of unused water to protect us from the 
shortages that we know are coming on this river system. What 
we're experiencing today on the Colorado River may be a 
harbinger of an entirely new reality for the two countries and 
seven States within the United States that have come to rely so 
heavily on this river's scant resources. Old paradigms of 
single source supply are relics of a time gone by.
    The security of communities in the arid west will depend on 
conservation, diversification of the resource portfolio and 
perhaps most critically, the recognition that we are 
interdependent. Only by embracing cooperation and partnership 
and by balancing competing needs and demands can we set new 
standards for resource management that will see our communities 
through this century and the consequences of climatic 
uncertainty.
    Thank you for your time, and I'll be happy to answer 
questions.
    [The prepared statement of Ms. Mulroy follows:]
Prepared Statement of Patricia Mulroy, General Manager, Southern Nevada 
                     Water Authority, Las Vegas, NV
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to testify today.
    My name is Pat Mulroy, General Manager of the Southern Nevada Water 
Authority. I have been involved in water issues in Southern Nevada and 
the Colorado River Basin for over 20 years.
    I would like to offer some perspective on an issue that has far-
reaching consequences for future water development and the reliability 
of existing water supplies in the western United States over the next 
century. That issue is climate change.
    Perhaps nowhere are the consequences of climate change more 
manifest than in the Colorado River Basin. Here, a sustained drought 
has altered our historical understanding of the river and challenged 
many underlying assumptions about its long-term management. It is 
forcing communities such as ours to adjust infrastructure plans, 
improve water efficiency and develop additional unused water supplies 
to maintain the reliability of our delivery systems. All this has 
happened in only a matter of years.
    As inconceivable as it sounds today, the States of the Colorado 
River Basin and the U.S. Bureau of Reclamation spent much of the 
nineties in negotiations about dividing surplus water on the river. 
Predictive models had indicated that the probability of a major water 
shortage was virtually zero. In the absence of compelling data or 
evidence to the contrary, most stakeholders on the river accepted this.
    This quickly changed as the river entered what soon became the 
worst drought in the recorded history of the system. The impacts of the 
drought have been daunting. Since 2001, inflows to Lakes Powell and 
Mead have been below average for all but one year, with 2002 being the 
worst thus far at 25 percent of average. Historical average inflows 
into Lake Powell over the past seven years have been 61 percent of 
normal. Today, both Lake Powell and Lake Mead sit at roughly 49 percent 
of capacity--a combined loss of around 25 million acre-feet of system 
water, and in only a handful of years. It is sobering to note that Lake 
Mead would probably be dry today were it not for Glen Canyon Dam and 
Lake Powell. Almost two million people in the greater Las Vegas Valley 
depend on Lake Mead for their daily water. Millions of others depend on 
it downstream in Arizona and California.
    Because of the drought, Southern Nevada has had to take steps to 
protect the operation of its two drinking water intakes in Lake Mead. 
Both are threatened by the lake's steadily declining water levels. The 
highest intake, Intake No. 1, sits at elevation 1050 and could be out 
of service as soon as 2010. The second intake, at elevation 1000, could 
be threatened sometime after that. To address the situation, Southern 
Nevada is proceeding as quickly as possible with the construction of a 
third intake. This new intake is not expected to be completed before 
2013. To address the loss of capacity that will occur if lake levels 
fall below the level of Intake No. 1, we have augmented the pumping 
capacity for our second intake and constructed bypass pipelines at our 
Lake Mead water treatment facility. This will allow our second intake 
to compensate for the loss of Intake No. 1 and move up to 600 million 
gallons of water per day into the valley while the third intake is 
being constructed.
    To further offset the impacts of the drought, Southern Nevada 
implemented more aggressive water conservation. When the Authority was 
formed in 1991, the region embarked on a modest campaign to achieve 10 
percent conservation by 2010. By 2003, with the drought as backdrop, 
Southern Nevada adopted a comprehensive drought response plan that has 
resulted in permanent changes to how the community uses water. The plan 
involves a mix of regional policy, education, pricing and incentive 
initiatives, including increases to tiered water rates among all local 
water purveyors, prohibition of turf in front yards of new development, 
restrictions on time and day of watering, more innovative conservation 
advertising, and extensive water waste enforcement. The centerpiece of 
Southern Nevada's new conservation ethic is the Water Smart Landscapes 
Program. With revenues derived from local connection charges paid by 
new development, this program provides water customers with rebates for 
removing turf from their landscaping. To date, the program has provided 
more than $85 million in rebates, saving more than five billion gallons 
of water each year.
    As a result of these conservation efforts, Southern Nevada's 
consumptive water use declined by approximately 18 billion gallons 
between 2002 and 2006, despite the arrival of nearly 330,000 new 
residents and 40 million annual visitors. Most importantly, 
conservation in our community has evolved from a temporary drought 
response into a permanent way of life.
    As Southern Nevada transformed its approach to conservation, the 
seven States of the Colorado River Basin came together in response to 
the drought and embarked on negotiations to establish guidelines for 
dealing with shortage on the Colorado River. After several years of 
discussion, the States submitted a comprehensive proposal to the 
Secretary of the Interior in 2006 that establishes shortage guidelines 
and creates incentives for conservation and efficiency.
    The proposal is a milestone in the history of the river. For the 
first time, a shared shortage among states and cities has been 
established, one that recognizes the interdependent nature of the 
river's users and the need to share impacts. To cite one example, in 
the event that the Secretary of the Interior declares a shortage on the 
Colorado River and Arizona cities are forced to cut back, Southern 
Nevada has agreed to reduce its consumption from the river by a 
proportionate amount. This type of arrangement would have been 
considered impossible ten years ago. It is happening today in direct 
response to the drought and long-term concern over how climate change 
may affect future water availability from the Colorado River.
    In conjunction with their proposal to the Secretary of the 
Interior, the seven basin states are undertaking a number of water 
management initiatives to increase flexibility on the river system. 
These include changes in the reservoir operation of Lakes Powell and 
Mead, additional interstate groundwater banking and other efforts. For 
example, a demonstration project to assess the use of ``intentionally 
created surpluses,'' which would allow water from extraordinary 
conservation gains to be stored in Lakes Powell or Mead and withdrawn 
in future years, is underway at the Metropolitan Water District of 
Southern California. Southern Nevada is helping to fund the 
construction of the Drop 2 Storage Reservoir Project along the All-
American Canal in return for a one-time supply of water that can be 
accessed in future years. The Drop 2 structure is intended to capture 
water that would otherwise be lost to Mexico over and above existing 
treaty obligations between that country and the United States. We have 
also funded a study of future supply options such as desalination for 
use by the seven basin states.
    Beyond these collaborative efforts on the Colorado River, Southern 
Nevada is moving forward on its own plans to develop an alternate water 
supply that is hydrologically independent of the river. That supply is 
comprised of applications and water rights for available, unused 
groundwater in several hydrographic basins in eastern Nevada.
    Two basins in particular form the backbone of this in-state 
groundwater project: Spring Valley and Snake Valley. Located west of 
Wheeler Peak and the Great Basin National Park, Spring Valley has 
perhaps the largest amount of unappropriated water of any basin in 
Nevada. In April 2007, the Nevada State Engineer granted Southern 
Nevada the right to 60,000 acre-feet in Spring Valley, the pumping of 
which we must step into gradually. In Snake Valley, a basin that is 
shared by both Nevada and Utah, Southern Nevada has applications for 
approximately 50,000 acre-feet of available, unused groundwater. Both 
states continue to negotiate over the disposition of water in Snake 
Valley.
    Unlike Snake Valley, there is no community in Spring Valley, only a 
series of large ranches. Between 2006 and 2007, the Southern Nevada 
Water Authority acquired seven of these ranch properties as part of its 
commitment to adaptive management of the groundwater basins that 
encompass our in-state water project. The properties included more than 
33,000 acre-feet of surface water rights and more than 6,000 acre-feet 
of groundwater rights, as well as a host of biological, recreational 
and other resources that will help support sustainable development of 
the water supply while minimizing impacts to the environment. To this 
end, we are retaining the surface water rights within the valley and 
will use them to recharge the basin as part of an overall effort to 
manage and protect the aesthetic and environmental values of the 
surrounding area. We will also continue ranching activities in Spring 
Valley to help the watershed and environment, and have hired a ranch 
manager who is developing and implementing strategies for more 
efficient and sustainable agricultural practices. Lastly, we entered 
into a stipulation agreement with the U.S. Department of Interior in 
September 2006 on behalf of the U.S. Fish and Wildlife Service, 
National Park Service, U.S. Bureau of Land Management and U.S. Bureau 
of Indian Affairs that outlines a detailed process for monitoring and 
management of Spring Valley as the in-state project moves forward. 
Through these various efforts, we can develop this essential water 
supply in a way that meets the needs of Southern Nevada, but does not 
compromise the basin of origin's natural resources or way of life.
    Let me take a few moments to underscore that word ``essential.'' 
Today, approximately 90 percent of Southern Nevada's water supply comes 
from the Colorado River. About 10 percent comes from groundwater in the 
Las Vegas Valley. Climate change and the drought may have helped 
transform Southern Nevada's conservation ethic to one of the most 
progressive in the West, but it also reminded us that you cannot supply 
100 percent of an area's demands with only 10 percent of its water 
supply. In other words, further shortfalls in the Colorado River could 
jeopardize that portion of our water supply, leaving our community 
exposed unless we move forward as planned and develop alternate 
supplies such as the in-state groundwater project. There is nothing 
short of an alternative supply that will protect us from continued 
drought or future shortages. In terms of conservation, Southern Nevada 
has noted for over a decade in its regional water resource plan that 
conservation is the least expensive resource available to us. As such, 
it remains a priority when it comes to our balancing of the many 
competing interests that need to be addressed when managing water (1) 
in the most arid desert in the country, (2) for one of the fastest 
growing populations in the country, (3) in a valley with groundwater 
supplies that are fully appropriated, (4) in a state with the fewest 
rights to Colorado River water of all the states that use the river, 
and (5) in a region with no agricultural water use to provide a supply 
buffer in times of shortage. However, conservation cannot be our only 
priority. The reliability of our water system and its supply are 
equally important.
    The reliability of a water system is not only a function of its 
physical infrastructure, but also of its ability to shift water 
supplies in the event of unforeseen circumstances. California is one 
example--their ability to shift supplies to alternate sources in 
response to climatic conditions is allowing them to avert a potentially 
disastrous shortfall. Reliability is the reason we invested in a second 
intake long ago and are currently developing a third. It is the reason 
we continue to diversify our water resource portfolio for current and 
future use. To solve the water management challenges posed by climate 
change and our unique situation as a desert community, we will still 
need additional, permanent supplies of unused water as an insurance 
policy to protect us from drought and shortages on the Colorado River. 
Our goal is to reduce our dependency on Colorado River water to 
approximately 60 percent by 2050.
    As the drought has demonstrated, climate change represents an 
unprecedented challenge for Western communities, particularly as it 
relates to developing, storing and delivering adequate water supplies. 
The types of internecine fights for resource independence that marked 
our past have to be replaced by a recognition of interdependence. If a 
city develops groundwater supplies in an area outside its own 
boundaries, it is not a given that the area will be destroyed. There 
are sufficient environmental standards and regulatory processes to 
prevent such a thing, but most importantly, it is not in a community's 
interest to exhaust or irreparably harm resources that are vital to its 
own well-being. Rural communities will find that partnerships with an 
urban area can provide them with the resources needed to survive the 
impacts of climate change. And while urban conservation has long been 
the focus of much attention, there are many opportunities for 
improvement in agricultural irrigation. Urban areas are increasingly 
willing to finance those ventures.
    What we are experiencing today on the Colorado River may be a 
harbinger of an entirely new reality for the two countries and the 
seven states within the United States that have come to rely so heavily 
on this river's scant resources. Old paradigms of single-source supply 
are relics of a time we cannot assume will return in the foreseeable 
future. The security of communities in the arid west will depend on 
conservation, diversification of the resource portfolio and, perhaps 
most critically, the recognition that we are interdependent. Only by 
embracing cooperation and partnership, and by balancing competing needs 
and demands, can we set new standards for resource management that will 
see our communities through this century and the consequences of 
climatic uncertainty. Our experiences in the Colorado River Basin and 
here in Southern Nevada demonstrate that many of our most difficult 
water issues can be resolved if everyone is willing to work together, 
take the time to understand one another's point of view, and share in 
the occasional tradeoffs necessary to achieve meaningful, long-lasting 
outcomes.
    Thank you for your time. I will be happy to answer any questions 
you may have.

    Senator Wyden. Thank you for your testimony.
    Doctor Spratling, welcome. We have some good news. I can 
tell more again on Saturday when I meet the Oregon cabinet.

  STATEMENT OF BOYD SPRATLING, PRESIDENT, NEVADA CATTLEMEN'S 
                     ASSOCIATION, ELKO, NV

    Mr. Spratling. It's good to hear we do have some good news. 
I'd like to outline a little bit some of the things that we 
have in common with concerns from the Oregon commissioner.
    My name is Boyd Spratling. I'm the Nevada Cattlemen's 
president, a veterinarian and I'm a rancher in northeastern 
Nevada which on that map you saw earlier was kind of the ground 
zero for a large number of fires and some huge fires in that 
area.
    Since 1999 things have changed, you know, you just look at 
fires that were ten to 20,000 acres, the vicinity is being the 
norm.
    Now we're seeing fires with acreage in excess of six digits 
as being the norm. One hundred thousand acre fires are nothing. 
Six hundred thousand acre fires are something that I think that 
we'll see more of and that is our concern. We know that fire is 
very complex and the cause for it is very complex, and we would 
submit, though, that fuels buildup, is probably one of the 
major portion or cornerstone of that problem. We're talking 
about fuels buildup. We have--the land managers have observed 
that going from wet years to dry years, we'll have the fuel 
buildup and grass buildup and some of the carryover that is not 
used, not grazed, will go ahead and carry from 1 year to the 
next, thus providing increased tonnage of fine fuels, which 
then will carry the fire from brush to brush into the heavier 
fuels.
    Not only are we seeing the short term effects of fuel 
buildups, we're also seeing long-term effects, and these would 
be fuels that would be the more woody to heavier type fuels 
like Pinion Juniper that we have seen in large acreage's there, 
and also of the sage community becoming more decadent or more 
mature, instead of seeing a wide spectrum of aged groups, 
Sagebrush, we're seeing mostly populations of the existing, of 
the sagebrush that's left.
    It is very mature, and those types of stands of sage are 
not necessarily beneficial to wildlife. Wildlife require and 
all species of the sagebrush require a full spectrum of ages 
from juvenile stages of brush into the mature stages.
    What we have seen also in a 30-year period of time is a 
change in management decisions on the rangelands. I think it's 
time that we need to review and reexamine some of those 
thoughts.
    Of course, the decisions were made over the years over a 
concern for the wildlife and wildlife use of the resource; also 
riparian values and native species values; those types of 
concerns, those single issue concerns, are now what drives the 
entire landscape decisions.
    We see something for the concern of individual species such 
as Sage Grouse drive the entire management of the landscape of 
the Great Basin in general, but we also see it at a smaller 
level, even Bitterbrush recovery after a burn is something that 
drives the management and the rehabilitation of an area, 
instead of looking at the broader view and because of that 
negligence and looking at the fuel's buildup, we have a greater 
potential for fire and a reburn in the same area. We all know 
that that gives us the potential for Cheatgrass buildup, and if 
we have burns within a 10-year period of time on the same 
landscape, our chances of Cheatgrass infestation are multiplied 
dramatically.
    If we have this Cheatgrass invasion and we have multiple 
burns in the areas the consequences become irreversible. It 
becomes almost impossible for perennials to come back in and 
especially for the woody species with all of those perennials 
are almost excluded entirely.
    In the past, we have seen most of our fires occur on the 
valley floors, at lower elevations, and that's where we see the 
Cheatgrass, the Cheatgrass problem. With climate change we see 
the potential for Cheatgrass prone areas to increase further up 
the elevation scale on a mountainside.
    Currently, I think one of our biggest concerns is for the 
areas that have not yet burned. That is our main concern. Let's 
save what we have just in the natural habitat of the Great 
Basin.
    We're starting to see huge fires, very intense fires at 
higher elevations. The very best habitat that the Great Basin 
has to offer is what we're now seeing burn and go up in smoke.
    Not only good habitat for wildlife, but for all creatures, 
both domestic and wild, those are the areas that are our very 
best livestock grazing that we live in harmony with the 
wildlife.
    These extreme behaviors that we see in these fires in the 
upper elevations are because of the huge woody buildup of an 
accumulation of those types of fuels. Our contention is, as 
livestock producers and as resource users, we think that 
because of concern for a single issue and management for a 
single issue raises a potential to have a catastrophic fire 
that will eliminate those types of values we all hold dear, and 
what's bad for the habitat for wildlife is also bad for the 
livestock industry.
    We will not be profitable, we will not be sustainable if we 
lose our resources, and that's a common resource that we share 
with wildlife and with other users of the public land. We are 
strong believers in multiple use. We believe that these types 
of fires do not make hunters happy, other recreationists, 
conversationists and land managers cannot be happy with what 
we're seeing and with what's happening now currently within the 
Great Basin.
    In my written testimony, I had a long list of negative 
impacts to communities and to the resource, and rather than go 
through those I'd like to spend just a moment to talk a little 
bit about potential solutions as we see it from producers out 
on the landscape.
    I think we need to see an equal priority given to fuels 
buildup.
    Fuel management, forage management, both fine and heavy 
fuel, has to have an equal priority in land management 
decisions along with endangered species, along with riparian 
values, along with all of those values that we hold dear--we 
need to broaden our view of what's happening within the 
watershed, and so that prioritization of fuels buildup needs to 
be--is essential to the solution.
    Prescriptive management of fuels, and as a livestock 
producer we see grazing as an absolute essential tool in the 
overall management of fuels. We would not be as bold to say 
that grazing can eliminate the potential for fire; that's 
simply untrue.
    But fires burn very differently on areas that are grazed as 
opposed to those that are not. They burn cooler, they have less 
tendency to destroy the crown of the bunchgrass, or the--we'll 
see skeletons of brush and other shrubs that remain after the 
fire goes through in areas that have had proper grazing along 
the way, well-managed grazing and that's what we're looking 
for, something that does not devastate what areas we already 
have. Soil stabilization to us is the most critical portion of 
the rehab in areas that have already burned.
    I'm encouraged to hear that through innovation and 
cultivars of grasses that the native species of grasses have 
the potential to essentially out-compete the Cheatgrass 
infestation. Unfortunately, at this point on a large scale that 
has not been the case.
    I think partially because total number of grasses that are 
out there and the number of available tons of seed that are 
required, we have huge areas, is just not available. So it's 
essential in that soil stabilization that we work toward using 
some non-native species if necessary to stabilize that soil; 
therefore giving us the microenvironment over a period of time 
that will allow the woody species to come back in.
    I think my last point is that well managed grazing is an 
essential tool.
    Let's address that. When we remove anywhere from 400 to 800 
pounds of forage per acre, that's going to make a big 
difference in how a fire burns and moves through an area, and 
we feel that along with that prescriptive management of fuels, 
whether it's mechanical, or cool season burns, is something 
that has not been used. That particular tool has been underused 
because of regulatory and/or litigation concerns and protests 
in land management decisions.
    We feel those burns are less likely to destroy the soil and 
the existing plant community, whereas these hot seasons, high 
intensity burns that we're experiencing now and in the middle 
of summer are very devastating to the basic plant community.
    Also, research is being done at UNR'S--University of Nevada 
Reno's experimental station and extension service are working 
with ways to reduce the amount of--or the impacts of Cheatgrass 
infestation, both in early season grazing and also something 
that we have never really tried much in the past, late season 
grazing after the seed falls off of the plant, it then becomes 
something that's a little more palatable to use, and with 
proper supplementation cattle can reduce the carryover of fuel 
into the next season.
    As we said earlier, it's predictable when we have two or 
three wet years, we will then have the dry--an inevitable dry 
season will come along, we'll have a dry lightning, low 
humidities and massive fires like we had last year.
    I think if we can reduce that carryover that we can perhaps 
slow some of that action down. I think the most important thing 
is that we become, as has been said many times earlier today we 
need to be proactive.
    We need to be preemptive; we need to be working toward a 
solution to the problem out there. We need the flexibilites at 
the district level of our land use agencies to be able to deal 
with these problems, and that's something that we've lost is 
that flexibility to make those decisions at the management 
level.
    [The prepared statement of Mr. Spratling follows:]
  Prepared Statement of Boyd Spratling, President, Nevada Cattlemen's 
                         Association, Elko, NV
    The following discussion embodies the ranching industry's views 
regarding the relatively recent increase of catastrophic rangeland fire 
in the Great Basin and throughout the West. First and foremost, we 
agree that the causes of wildfire are extremely complex, but there are 
rather predictable consequences. The recent fire events, beginning in 
1999 followed previous seasons of normal or above-normal precipitation. 
The results were substantial heavy growth and production. When fuels 
are allowed to build up and carry over through multiple years, and the 
inevitable dry summer follows, the stage is set for extreme fire 
potential. These accumulated grass-based fine fuels serve as a ladder 
to carry the flame between larger brush and shrubs. The fuel situation 
is multiplied by a reduced manipulation of heavier woody plants. Un-
impacted, late seral stage decadent brush and expanding stands of 
Pinion Juniper have been allowed to increase in acreage, because of 
concern for dependent wildlife. In reality, sage grouse and mule deer 
require a mosaic of brush, with a full spectrum of seral stages. 
Juvenile sage is even more important than extremely mature sage. This 
variety of habitat is necessary from a landscape perspective.
    Climate change has the potential to move the cheat grass-prone 
environment to higher elevations. Currently, these elevations have a 
higher precipitation potential and a greater probability of natural 
release and recovery to a pre-fire state. The tons of particulate 
matter, carbon dioxide and other gases released into the air during a 
fire are incalculable, and dust/ash storms during the following months 
degrade our fabled Nevada blue skies to a hazy brown. These 
environmental insults only worsen the potential for future climate 
changes.
    We have watched our lower elevation valley floors burn, only to see 
invasive cheat grass replace what were once perennial bunch grasses, 
sage and other shrubs. The scenario was then set for repetitive short-
cycle fires that easily burn through the early maturing, highly 
flammable monoculture stands of cheat grass. Once established, cheat 
grass stands are very difficult to rehabilitate back to perennial grass 
and brush that are home to the wildlife native to the Great Basin. 
Additionally, the renewable grazing resource is altered, perhaps 
irrevocably, for a family-based industry that depends upon both public 
and private rangelands throughout the West.
    Our concern has shifted somewhat. In the last few years, we have 
seen catastrophic, high-intensity, enormous acreage firestorms in our 
higher elevation prime rangelands. These are the finest examples of 
Great Basin landscape and habitat for all manner of animals, both wild 
and domestic. These types of fires exhibit behavior so extreme that if 
winds are added, safe fire suppression is impossible. It is difficult 
to find a location to make a stand.
    Over the last thirty years, the trend has been to reduce impacts to 
the land. Regulatory actions have decreased the number of AUM's 
permitted on public lands, and actions to manipulate heavy fuels or 
break up landscapes with green strips have been hampered, often due to 
litigation. Of concern is the tendency for single issues to drive the 
entire management of a given watershed. These issues vary from post-
fire regeneration and rehabilitation, to endangered species recovery, 
to bitterbrush and aspen growth or concerns over riparian health. We in 
the livestock industry agree that these are all very worthy, but forage 
and fuel management have been ignored to the extent that catastrophic 
fire totally wipes out all of the above listed values.
    Below is a short list of negatives resulting from wildfire:

  <bullet> Soil erosion (wind and water)
  <bullet> Reduction of moisture absorption (huge fires can affect 
        entire watershed functionality)
  <bullet> Reduce feed and cover for all wildlife
  <bullet> Degradation of air and water quality, both short and long 
        term
  <bullet> Degradation of viewscape
  <bullet> Introduction of invasive weeds (cheat grass, thistle)
  <bullet> Reduction of livestock grazing
  <bullet> Displacement and economic strain on rangeland-dependent 
        families
  <bullet> Extreme cost of rehabilitation
  <bullet> Prolonged time interval to get back to growth of woody 
        shrubs
  <bullet> Changes in watershed that increase the frequency of fire
  <bullet> Reduction of other multiple uses on public land (hunting, 
        fishing, recreation)
  <bullet> Reduced ability to sustain appropriate number of wild horses

    Possible solutions:

  <bullet> Forage build-up and fuel management must be placed at an 
        equal priority with other management issues. If it is ignored 
        further, we will set back hard-earned landscape improvements by 
        decades.

  <bullet> Another principle we advocate is continuing prescriptive 
        management of heavy fuels, such as Pinion Juniper or decadent 
        stands of sagebrush. When fire reaches such stands, the flame 
        length, heat and intensity increase dramatically. Firefighters 
        can only work the flanks of such fire, because safety becomes a 
        major concern. Some fear that sagebrush might be eliminated, 
        and that is simply untrue. Breaking up these stands with plants 
        of various seral stages and with fire-resistant grasses and 
        forbs would not only provide locations to stop the fire, but 
        would also be of major benefit to a variety of wildlife.

  <bullet> Perhaps the most critical tool is the stabilization of the 
        soil following a burn. Many native species have been 
        unsuccessful at out-competing cheat grass infestation. Resource 
        management professionals contend that some cultivars of native 
        grasses are being developed to do a much better job. That being 
        said, the simple truth is that non-native bunch grasses have a 
        much better opportunity of success. The bottom line is that 
        stabilization and out-competing of cheat grass is absolutely 
        the most important approach we can take in this endeavor. If 
        the goal is to eventually have some shrubs and brush, then 
        aggressive perennial grass re-establishment is the critical 
        first step. Many complain that such seeding only provides 
        livestock feed, and that is most certainly a true assertion on 
        the part of our critics. It just happens that such perennial, 
        non-native grasses also give us the best opportunity to salvage 
        our treasured landscape.

  <bullet> Well-managed livestock grazing plays a major role in fuels 
        management and healthy ranges. Grazing will not eliminate fire, 
        but it will, absolutely, alter the fire activity and behavior. 
        Fires where livestock have removed 400 to 800 lbs. of grass per 
        acre will burn with much lower intensity and speed. One will 
        observe large islands and fingers of unburned surface. Also, 
        skeletons of burned brush and crowns of bunch grasses remain 
        intact, and they have a much higher potential for rapid 
        recovery, even without expensive rehab efforts.

  <bullet> Grazing also aids in control of cheat grass-prone areas. 
        Very early season grazing can reduce cheat grass production, 
        thus allowing an opportunity for the reestablishment of 
        perennials. New grazing innovations are being tested to promote 
        very late-season cheat grass grazing to assist in reduction of 
        carryover of fuels into the next season. Flexibility must be 
        given to land managers to allow grazing for this specific 
        prescriptive function.

    In short, grazing plays an important role in both fire pre-
suppression and post-fire rehabilitation.

    Senator Wyden. I thank you all very much, and the Senate 
majority leader is going to have to go in a few minutes, and I 
want to have him make a closing statement and just as we go, 
Ms. Mulroy, tell us, so we have it for the record, the Senate 
Majority Leader feels strongly on this point, what are the 
Colorado River managers doing about climate change?
    Ms. Mulroy. There are--obviously, it's not a holistic 
group, but at this point I think we have come a long way to 
begin to look very differently at this river system.
    We have to adapt, that's the point that we're at right now.
    Now, however, at a--on a larger scale there is a group of 
the largest municipal agencies in the country that are 
coalescing around the issue of climate change.
    They include New York, they include David Schaff from 
Portland, they include Seattle, San Francisco, Southern 
California, and all of us are looking at a three-pronged attack 
and reaction to what we're seeing emerge in climate change.
    It is both from the adaptive level on promoting the 
necessary science to give us the tools that we need in order to 
manage around these water resources, and finally, it is to help 
be a part of the solution and begin mitigating our own impact 
on the environment.
    Senator Wyden. Thank you.
    I think we can have the Senate majority leader for maybe 
ten more minutes or whatever his schedule will allow.
    I'd very much like to have him make a closing statement. 
Can we have the Senate majority leader come forward?
    Senator Reid. Mr. Chairman, for me this has been very 
educational.
    What we've heard from every witness, we hear from the 
Bureau of Land Management, we hear from the Geological Survey, 
we hear from the General Manager of the Southern Nevada Water 
Authority, we hear from our two cattlemen, basically; they 
don't have enough resources to do their job. They're all very 
kind, they don't want to get in trouble with their bosses, but 
that's what it all amounts to and you did everything you could 
to draw this out and they were afraid to say anything because 
they go back to their bosses and get in trouble. The fact is, 
you know Eastern Oregon is just like Northern Nevada.
    Everyone thinks of Oregon as the great Pacific Ocean, but 
much of your State is just like our State, and we have the BLM 
that is terribly understaffed, the Geological Survey, terribly 
understaffed. Not only do they not have a constant flow of 
money that you talked about often, they don't know sometimes 
from month-to-month what they're going to be able to do.
    Senator Wyden. I think the Senate majority leader's 
microphone just went dead. Perhaps we can have that fixed. Go 
ahead, Mr. Reid.
    Senator Reid. They are worried from month-to-month, are 
they going to have to lay people off, literally, and I was very 
impressed with Doctor Belnap.
    She said we can handle this problem, but what she didn't 
say is it's going to take a lot more resources, and if we stop 
and think what's going on in our country, what our priorities 
are, this land is my land, this land is your land. We're 
spending 2.3 billion dollars of borrowed money every week in 
Iraq. 2.3 billion dollars for a spec of, a couple--one day--if 
we could get 1 day of the money that is spent in Iraq we could 
solve the problems, or at least in the foreseeable future have 
an indication of what we need to do.
    Mr. Chairman, you have fought for, you have counties in 
Oregon that survive on the money that they get from the Federal 
Government. In fact--it's a fact of life. We've got these great 
counties in Oregon that depended on cutting down trees, and 
that's how they survive. That is not--it's not there any more. 
We have--you have led the charge, but we've had, Western 
Senators, fighting for little dribs of money, so payment in 
lieu of taxes could get what we're supposed to get because of 
the Federal presence we have in these counties throughout the 
west, and we're not getting it.
    We are not focusing attention where we need to focus 
attention. What we're talking about as these two I refer to 
cowboys, these two people who depend on rangelands for their 
existence; what they're saying is that this is a long-term 
problem, and we don't have a long-term solution that is 
meaningful. We need to do a lot more planning as Doctor Belnap 
said. Mike Pellant said it very clearly, that their programs 
work, but they don't have any money.
    So, Mr. Chairman, thank you very much for being here today. 
This has been, for me, a real revelation. I guess ignorance is 
bliss. Sometimes you feel better not knowing what's really 
going on, but for me a picture is painted here today of the 
disaster we have facing us, and we're doing nothing about it--I 
shouldn't say nothing--but we're doing very limited attacks 
here, and we have the people to do it, we have the expertise to 
do it and we need to make sure that these people have the 
resources they need including more personnel.
    Senator Wyden. Mr. Leader, I want you to know that you lead 
this charge, I will help in any way I can. I think you summed 
it up. It's appropriate to wrap up with your words.
    This really comes down to choices. It comes down to 
choices. It comes down to values, it comes down to what we care 
about, 300 million dollars a day for the war in Iraq, as you 
said, you addressed about the critical needs here in the west.
    Senator Reid. My favorite punching bag I've had lately has 
been coal. I can't leave here without saying something about 
that.
    Mr. Chairman, we have a county called White Pine County in 
Nevada. It's a large county area-wise, beautiful. Do you 
remember John Syburn that we served with in the house?
    Senator Wyden. Yes.
    Senator Reid. He in the House had your same position. He 
was chairman of this subcommittee. Frankly, he hated Nevada. It 
was gambling, prostitution and bombs being set off here.
    He came from a family of wealth. The entire--money that he 
inherited. He came to Nevada and we spent days traveling around 
looking at potential Forest Service wilderness. We had our 
final meeting in Washoe County in Northern Nevada, and he said, 
``I'm a convert. I've come to love Nevada because we have these 
wide open spaces,'' and back to White Pine County, we have 
vistas in White Pine County that you can see for more than a 
hundred miles.
    Nevada is the most mountainous State in the union except 
for Alaska, we have 314 separate mountain ranges, and White 
Pine County is a place of beauty, pristine air, and the 
regulated monopoly we have in Nevada wants to build power 
plants in the middle of this pristine land and build on the 
first--and burn in the first phase, the first year they will 
get this done, if they get it done, which I'll do everything I 
can to stop it, they will burn seven million tons of coal. One 
year. Three years, 21 million tons of coal. They say, ``We want 
clean coal technology.'' None exists, they have cleaner coal 
technology.
    So one of my visions in my political career is to do 
something to protect those pristine areas, and we've been able 
to do it with Forest Service wilderness and we've done some 
Bureau of Land Management wilderness.
    We have an obligation to protect these beautiful areas, and 
what has created all of the problems that we're talking about 
today? We've beaten around the bush, talking about global 
warming is here, but why is it here? Because we're burning--
we're using 21 million barrels of oil every day; every day. 
Hundreds of millions of tons of coal.
    We've got to stop that. That's the only way it's going to 
happen, so that we use alternative energy, that stuff that's up 
there every day; the sun shines every day, especially in 
Nevada, the wind blows every day in Nevada. We have geothermal; 
we have the Saudia Arabia geothermal energy, and we haven't 
talked about that today. That's going to help the cowboys, it's 
going to help casinos, the hotels; it's going to help your 
ranchers; it's going to help us all.
    Mr. Chairman, thank you very much for--and I have to 
mention this--Ron and I've known each other all of these years. 
Ron within 2 weeks is going to be a new father. He is having--
he isn't--but his wonderful wife, Nancy, is having twin, twin 
babies, in about 2 weeks, isn't that right?
    Senator Wyden. Exactly.
    Senator Reid. Thank you.
    Senator Wyden. Thank you for all of your friendship, Mr. 
Leader. God speed.
    Let us briefly bring our witnesses back. Then I just had a 
couple of questions and then we can excuse everyone.
    Ms. Mulroy, Mr. Nichols, and Doctor Spratling, we'll have 
you up for just a couple more minutes.
    Dan, just by way of a question for you. If nothing changes, 
we sort of stay in place with what we have, what do we have to 
do to the agricultural economy in your community? You're pretty 
much flattened, aren't you?
    Mr. Nichols. Yes, we're basically in a--at the exponential 
rate it's growing, unless something is done to curb it, evade 
it, upper management techniques, we're basically done. How long 
that will be, who knows?
    As I indicated, the Medusahead promotes fire and fire 
promotes Medusahead.
    It is absolutely a monoculture that nothing else can 
compete with, it's a devastating weed. If it isn't brought 
under control, we're going to be done.
    Senator Wyden. It's going to turn the lights out on this 
part of Oregon, right?
    Mr. Nichols. Lifestyle, wildlife, hydrology, riparian 
areas, this noxious weed has an impact on absolutely 
everything.
    Senator Wyden. The same question essentially for you, 
Doctor Spratling the challenge is a little bit different, but 
in terms of native species and wildfires.
    If people don't wake up and do the kind of aggressive 
proactive work that the majority leader's talking about, won't 
this have devastating effects on the people you represent?
    Mr. Spratling. I would agree wholeheartedly.
    The inaction and hands-off policy is absolutely the worst 
thing that we can do; inaction is not the correct way to go. 
We've got to proactively go down that road, deal with these 
resource problems that not only affects the economies, but, you 
know, there's a lot of values, all the other values that we 
hold dear are all at risk by doing that.
    Senator Wyden. Ms. Mulroy, the last word is for you.
    I'm glad to hear that the Colorado River, you know, 
managers, are getting into this, with the coalition of leaders 
around the country, but I hope the effort will accelerate.
    I think that what we've heard, we've heard today, is that 
this is a now pull out stops kind of time, because if we don't 
use this, this period, we're going to have damage that will be 
irreversible, and I want to give you the last word.
    Do you have anything that you would like to add as we wrap 
up?
    Ms. Mulroy. Thank you, Mr. Chairman.
    I do agree that there's probably no more compelling issue, 
at least from where I sit, than to address the issues that 
everybody here talked about, and that includes also issues on 
water resources because I think we've only scratched the 
surface to see what the consequences are going to be on western 
water resources, whether it's rising oceans that turn the 
Sacramento Delta into a wasteland of sea water or whatever 
those consequences are as they manifest themselves in the west, 
but I'm completely convinced this is the most compelling issue 
facing the Western United States in this century.
    Senator Wyden. It is, and what we've got to do, is we've 
got to get people to act quickly. So often we see it in 
Washington, time is spent in sort of partisan, you know, 
bickerfests. I think you lose the Basin, you lose some of these 
treasurers. People aren't going to talk about democrats and 
republicans and say, ``How did you let it happen?''
    So you three have been very good. I particularly appreciate 
the coalition building efforts of rural folks, of Dan, you, 
Doctor Spratling, and at home or all these ranchers and cattle 
folks reach out to the environmental scientists, and others, 
and that's, of course, that's how you get it done that's how 
you are building support for the health program and secure 
rural schools program, and we don't have the total question 
solved, but we have the coalition, so with that, it's been a 
terrific hearing from the subcommittee, it gives us more work 
to do and more work seems to be done quickly.
    With that, the subcommittee is adjourned.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

 Statement of Dennis Ghiglieri, Conservation Chair, Sierra Club, Reno, 
                                   NV
    These comments are submitted on behalf of the 5,500 members of the 
Toiyabe Chapter in Nevada and eastern California. One of the most 
significant threats to the Great Basin is the potential loss of its 
precious water. Unfortunately, this issue was not addressed by the 
Committee during the hearing.
    Southern Nevada's break-neck growth has lead its water agency, the 
Southern Nevada Water Authority (SNWA), to propose pumping 200,000 
acre-feet annually from desert valleys in eastern Nevada and sending 
the water to the Las Vegas Metropolis. Likewise, the Clark County and 
Lincoln County Commissions have approved a huge city 53 miles north-
east of Las Vegas of more than 150,000 people. The new city is designed 
around numerous golf courses with plans to import water from further 
north and pump goundwater within Coyote Springs Valley. Mesquite, 
Nevada plans groundwater imports to fuel its housing growth. Much of 
the pumping and export pipelines and facilities will take place on 
public lands and seriously impact public lands throughout eastern 
Nevada negatively impacting rural communities and springs, wetlands, 
streams, and desert plants and animals.
    Congress should immediately fund scientific studies on the 
groundwater systems of Nevada, western Utah, and eastern California to 
fully assess the potential for environmental and surface water impacts 
of the massive groundwater development proposed.
    Current scientific knowledge tells us that the groundwater of 
eastern and southern Nevada, western Utah, and eastern California are 
linked hydrologically. Groundwater development will undoubtedly change 
this existing, stable hydrology. Congress should require that states 
develop agreements through an open public process, including 
establishing the baseline conditions as well as protection of surface 
water rights upon which rural communities and plants and animals depend 
before any groundwater development occurs or pipelines are constructed 
on public lands.
    The threat of global warming is chilling for all of the southwest 
because reduced precipitation in an already dry area appears to be 
likely. Drought in this region hits not only the Colorado River, but 
eastern and southern Nevada, western Utah, and eastern California at 
the same time frequently. Congress needs to be much more proactive and 
require the 7 Colorado River States to meet standards for water 
conservation and efficiency. The Colorado River is stretched to the 
breaking point and demands from development leave the environment 
damaged and broken throughout the region. Congress has taken a ``hands-
off'' approach but that will likely lead to increasing environmental 
damage and contention among the States. Instead a basin-wide water 
management plan with built-in environmental protection and mitigations 
needs to be developed to address present day water shortfalls and those 
which can be anticipated in the coming years.
    Thank you for this opportunity to comment.
                                 ______
                                 
                Statement of Kenneth Hill, Wendover, UT
    The 11 Oct 2007 Las Vegas field hearing of the Senate Subcommittee 
on Public Lands and Forests covered a lot of important topics: invasive 
species, drought, wildfire, and climate change.
    But one topic was missing: interbasin water transfer proposals, 
including the Southern Nevada Water Authority's proposal to pump and 
export 200,000 acre-feet of groundwater from rural Nevada and Utah for 
uncontrolled growth in southern Nevada.
    Snake Valley, shared by Utah and Nevada, is particularly prone to 
wind and dust storms. These are likely to increase due to climate 
change as ground cover continues to die. If massive quantities of water 
are pumped and exported from this area it could be another Owens Valley 
with dangerous, unhealthy air quality.
    Likewise, springs already are drying up at alarming rates 
throughout Snake Valley because of the drought. The SNWA water export 
scheme certainly will hasten this trend, endangering the delicate 
balance of biodiversity in the ecosystem here.
    Massive water exportation from fragile desert basins is not 
sustainable and cannot be seen as a long-term solution for supplying 
water to urban areas like Las Vegas. By the time impacts develop they 
may be irreversible. Aggressive conservation is necessary. Las Vegas is 
well above other southwestern cities in per capita water use and has a 
long way to improve. Southern Nevada should be required to achieve 
consumption rates more like those of Tucson before dessication of rural 
valleys is permitted.
    There is insufficient scientific data upon which to base decisions 
to authorize the SNWA water exportation plan. The recent BARCASS draft 
report did not study impacts of the proposal. A follow up study is 
needed before any decisions are made.
    Congress should:

  <bullet> Require the Colorado River states to meet standards for 
        water conservation and efficiency.
  <bullet> Require the Colorado River states to develop region-wide 
        water management plans with built-in environmental protection 
        and mitigation.
  <bullet> Require western states to develop compacts on shared 
        groundwater, including protection of community health and 
        environmental resources through open and full public processes.
  <bullet> Mandate and fund scientific studies by the USGS on 
        groundwater exportation proposals (particularly the SNWA 
        proposal in eastern Nevada and western Utah) to analyze 
        potential impacts to the environment and local stake holders.
                                 ______
                                 
                Statement of Abigail Johnson, Baker, NV
    THREAT: Global warming is already exacerbating droughts and 
resulting in water shortages in the West. Groundwater is not available 
on a sustainable basis for massive interbasin water projects, like the 
Las Vegas water grab. Yet, SNWA is not seriously developing water 
supply options, including increasing water conservation or acquiring 
additional Colorado River supplies, nor pursuing desalination. 
SOLUTION: The US Congress should require the 7 Colorado River states to 
meet standards for water conservation and efficiency and to develop a 
basin-wide water management plan with built-in environmental protection 
and mitigation.
    THREAT: The Nevada water grab may have direct serious negative 
environmental impacts in many other western states, including Utah, 
Arizona, and California. SOLUTION: The US Congress should require 
states to develop compacts on shared groundwater, including protection 
of environmental resources and community health through a full and open 
public process before ratification by Congress.
    THREAT: There is insufficient scientific information on Western 
groundwater and on the environmental impacts of groundwater development 
and transfer. SOLUTION: The US Congress should mandate and fund 
scientific studies by the USGS on groundwater systems shared by states 
and the potential environmental and other impacts of groundwater 
development and transfer.

    A major threat to the Great Basin is water mining such as is 
planned by the Southern Nevada Water Authority. Removing water without 
replacement threatens a large variety of plant and animal species, 
local economies (tourism, hunting, fishing, outdoor recreation, 
farming, ranching).
    The body of science, though not complete, points to widespread and 
devastating effects of groundwater mining in already fragile and 
drought prone environments. Please make the following part of the 
hearing record as part of my comments:

    --``Fueling Population Growth in Las Vegas: How Large-scale 
            Groundwater Withdrawal Could Burn Regional Biodiversity'' 
            JAMES E. DEACON, AUSTIN E. WILLIAMS, CINDY DEACON WILLIAMS, 
            AND JACK E. WILLIAMS, 688 BioScience, September 2007 / Vol. 
            57 No. 8 www.biosciencemag.org
    --Effects Of Interbasin Water Transport on Ecosystems Of Spring 
            Valley, White Pine County, Nevada'', 24 June 2006, David 
            Charlet, Ph.D. Professor of Biology, Community College 
            Southern Nevada, Henderson NV 89015.
    --``Gambling on the Water Table, The High-Stakes Implications of 
            the Las Vegas Pipeline For Plants, Animals, Places and 
            People'', Defenders of Wildlife & The Great Basin Water 
            Network, October, 2007.''
    --``BARCASS I:--Basin and Range Carbonate Aquifer System Study'', 
            USGS, June, 2007. Of particular note here are the new 
            findings regarding the inter-connectivity of basins 
            suggesting that extracting groundwater from an aquifer 
            upstream will affect those basins downstream. The multiple 
            effects of pumping will affect negatively large areas of 
            the Great Basin.

    Thank you for considering my comments.
                                 ______
                                 
       Statement of the Forest Service, Department of Agriculture
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to submit a written statement on the environmental threats 
to the Great Basin. The Forest Service is concerned about the rate at 
which invasive species are spreading and about increasing occurrence of 
severe wildfires across the Great Basin. In recent years, we have 
observed that wildfires are increasing in size and intensity, and that 
invasive species, especially cheatgrass, are expanding at a rapid rate 
in the Basin. Extended drought and increasing temperatures have 
exacerbated these changes. We also have observed declining snowpacks 
and other changing patterns of precipitation and runoff which increase 
the complexity of managing an already limited water resource. These 
environmental threats are affecting the health and the use of the 
Basin's environmental resources. The agency is working in partnership 
with others to address these challenges and to stem the tide of 
negative impacts on wildlife habitat and other uses of the land 
including livestock grazing and recreation.
                               background
    The Forest Service manages 32 million acres of forest and 
rangelands across the Great Basin. These National Forest System lands 
intermingle with Bureau of Land Management (BLM) and private lands. The 
region is characterized by north-south trending mountain ranges 
separated by wide valley basins. In general, the basin portion of the 
Great Basin is in private ownership or managed by the BLM. The Forest 
Service primarily manages areas adjacent to these broad valleys. Large 
portions of the Basin are currently dominated by pinyon and juniper 
forests, but were historically sagebrush grasslands that were 
maintained by fires that occurred naturally across the Great Basin 
desert. In addition, the Great Basin desert has been invaded by 
cheatgrass, an annual grass introduced from Eurasia, which forms a 
dense carpet of easily ignitable dry fuel.
                        wildland fire and weeds
    The fires of 2007 have brought to the forefront the issues of 
widespread wildfire and its implications for the environment in the 
Great Basin. Forest and grassland fuels across the Great Basin are 
extremely dry because of low winter snowpacks, below normal spring 
rains, very hot and dry summer weather, and increased vegetation stress 
and mortality from drought, disease and insects. Historically, fires in 
the sagebrush grasslands of the Great Basin occurred every 30 to 100 
years. This fire frequency maintained the native sagebrush grasslands. 
Today, fire maintains cheatgrass, an invasive winter annual that 
germinates early, often under snow cover, and competes with the native 
grasses, shrubs, and wildflowers. With cheatgrass dominance, fire 
frequency has increased to approximately every 3 to 5 years. The shift 
of these ecosystems from diverse shrub-grass plant communities to near 
monocultures of annual grass can modify their structure and function. 
Cheatgrass, because of its annual nature and its shallow rooting 
system, does not protect the soils from erosion as well as the 
perennial, deeply rooted, native species. Additionally, erosion 
threatens the productivity of the land (removing the more productive 
topsoil) and water quality. If these shortened wildfire cycles are left 
unchecked, weed species, even more damaging than cheatgrass, may 
establish. In addition, areas dominated with invasive species, like 
cheatgrass and medusahead, are highly flammable and are very 
susceptible to frequent reburn, making it even more difficult to 
restore these landscapes.
climate change, invasive species, and ecosystem and economic resilience
    The ultimate role of climate change in the Great Basin is not 
completely understood today. The Forest Service is conducting research 
on the effects of climate change, but more needs to be learned. Some 
climate change models predict significant temperature increases by the 
end of the century, as well as increases in carbon dioxide levels. 
Precipitation models, while less robust, predict a slight increase in 
winter and decrease in summer precipitation. An important consequence 
of the simplification of Great Basin ecosystems through the loss of 
species diversity (e.g., replacement of native species by monocultures 
of invasive species) may be rangelands that are less resilient to 
effects of climate change and wildfire.
    Shifts away from ecosystem complexity may also impact economic 
resources through loss of forage abundance for wildlife and livestock. 
Ranching as well as various outdoor activities are major components of 
rural economies within the Great Basin. As areas are unavailable for 
grazing as a result of wildfires, or as grazing seasons are shortened 
because of decreased forage abundance (annuals tend to produce less 
forage and mature earlier in the growing season), the effects may be 
economically detrimental to ranching operations and counties that 
depend on these forage resources.
                  working to address invasive species
    The Forest Service is treating the land and working with others to 
help address these environmental issues within the Great Basin. One 
approach we are expanding is the use of targeted grazing. The Forest 
Service is using targeted grazing as a tool to control fuel levels by 
managing invasive species. The Forest Service is working with the 
American Sheep Industry (ASI) and the National Cattlemen's Beef 
Association (NCBA) to develop additional opportunities for effective 
landscape scale treatments. ASI has recently published the manual 
Targeted Grazing: A natural approach to vegetation management and 
landscape enhancement. Currently ASI, NCBA and the Forest Service are 
coordinating an effort to train land managers and livestock operators 
on the tools presented in this manual. The ability to increase the use 
of targeted grazing dramatically to achieve landscape scale treatments 
for both invasive species and fuels control has the potential to affect 
the landscape in the Great Basin.
    The approaches being used include:

  <bullet> In small areas, use of early season grazing by livestock on 
        cheatgrass-infested landscapes as a part of ecosystem 
        restoration to reduce or destroy cheatgrass to make reseeding 
        projects more effective.
  <bullet> Use of livestock to create fuel breaks surrounding 
        communities at risk from wildland fires.
  <bullet> Use of targeted grazing to maintain or improve habitat 
        characteristics desirable for selected wildlife species.
  <bullet> Use of goats to limit woody plant dominance, such as young 
        juniper encroachment.

    One example of targeted grazing is on the Humboldt-Toiyabe National 
Forest. Sheep flocks have been used to help reduce fuel accumulation on 
hillsides in early spring. Also, targeted grazing projects are being 
observed in the field to be successful across the region to manage and 
reduce fuels before the fire season, potentially helping to reduce 
catastrophic fires, and to slow the spread of invasive annual grasses 
that are destroying native ecosystems.
   other efforts to address environmental threats in the great basin
    The Forest Service's Rocky Mountain Research Station (RMRS) is 
conducting research specifically related to Great Basin ecosystems and 
to climate change. The RMRS Ecology, Paleoecology and Restoration of 
Great Basin Watersheds Research Work Unit located on the campus of the 
University of Nevada Reno is focused on: 1) expansion of pinyon-juniper 
woodlands and the consequences for fire regimes and fire management; 2) 
susceptibility of sagebrush ecosystems to invasive plant and management 
options for control of plant invasions; and 3) effects of ongoing 
climate change on Great Basin ecosystems. In addition, RMRS is involved 
in research on the effects of climate change on forest and rangeland 
resources and research on metrics for ecosystem health.
    The Forest Service is also involved in other research projects 
focusing on issues within the Great Basin such as the ongoing Joint 
Fire Sciences Program SageSTEP (Sagebrush Steppe Treatment Evaluation 
Project). SageSTEP is developing a basic understanding of the causes 
and effects of tree expansion and of increasing tree densities and 
cheatgrass invasion on sagebrush ecosystems and associated pinyon-
juniper woodlands. Results will be used to devise techniques for 
restoring and maintaining sustainable sagebrush ecosystems and pinyon-
juniper woodlands. Techniques being evaluated by this project include 
the use of prescribed fire as a restoration tool and the identification 
of plant species and seeding methods for restoring native communities. 
Other collaborative research efforts supported by the Joint Fire 
Sciences Program that are specific to the Great Basin focus on the 
ecological response of watersheds, experiencing tree colonization, to 
the use of prescribed fire and mechanical treatments to control tree 
area expansion.
    The Governors of Nevada, Idaho, Utah, and Wyoming are in the 
process of signing a Memorandum of Understanding (MOU) concerning fuels 
management and wildland fire rehabilitation and reseeding. They have 
pledged to work together to counter the adverse effects of fire, 
invasive species and other disruptive changes in vegetation conditions. 
We expect the States will formally request the support and cooperation 
of the Forest Service and Bureau of Land Management in rehabilitating 
lands in the Basin. The Forest Service is actively engaged in wildfire 
restoration and works with the States and private landowners to 
rehabilitate lands burned by wildfire.
    The Forest Service has a long history of combating invasive species 
in the Great Basin. We have fostered and worked with cooperative weed 
management areas (CWMA) over most of the Basin. These groups include 
all landowners in an area, working together to manage invasive weed 
species across the landscape. We will continue to work with CWMAs using 
their experience and expertise to combat the spread of invasive species 
after wildfires.
                               conclusion
    Thank you for the opportunity to provide this Statement. Please 
submit any questions you may have to the Chief of the Forest Service.
                                 ______
                                 
   Statement of Rupert Steele, Chairman, Confederated Tribes of the 
                       Goshute Indian Reservation
    My name is Rupert Steele, Chairman of the Confederated Tribes of 
the Goshute Indian Reservation. The reservation is located in Eastern 
Nevada and Western Utah, approximately one-half of the reservation is 
located in Nevada and one-half is located in Utah.
    I write to you today to express my concerns about effects of the 
proposed large volume of pumping of water from the Snake Valley in Utah 
and from the Spring Valley in Nevada. The Great Basin is a desert and 
pumping water will have grave effects on the region because there is a 
lack of adequate river or large streams that would provide recharge to 
the regional water system. Once the water is in the pipeline, I don't 
see anyone closing the valves or shutting down the pumps when the water 
table is lowered. The pumps will be allowed to operate until they burn 
out from the lack of water. This could happen the next day, the next 
week, the next month, or the next year because no one knows how much 
water is beneath the ground, however there are many assumptions and it 
is not a good practice and it is impossible to make high-quality 
decision based on assumptions.
    The Goshute Indian Reservation is located between the two valleys. 
The water source for the reservation is provided by the precipitation 
run-off from the Deep Creek Range.
    I am deeply troubled by the Basin and Range Carbonate Acquifer 
Study (BARCASS) because the Goshute Indian Reservation was not a part 
of the study, although the reservation is located between the two 
valleys and adjacent to the proposed pumping well/s. The Goshute Tribe 
adopted a Tribal Resolution opposing the project.
    The Goshute Tribal economy is funded from revenue derived from the 
management of the natural resources. The funds are used to operate 
various programs to serve Tribal members and the Ibapah community. The 
Tribal economy is wholly dependent on the water system on the Goshute 
Indian Reservation. Large volume of water pumping will deplete the 
ground water storage, reduce the stream flows, greatly decrease and 
eliminate ground water-dependent ecosystems, increase saltwater 
intrusion, and have adverse changes in ground water quality. The 
depletion, disruption, and ultimately contamination of the ground water 
resources will have severe consequences on the reservation livelihood 
and will have irreparable damage and injury to local and adjacent 
hydrological and environmental systems.
    I know that the surface water, the groundwater, and the deep water 
aquifers are interconnected and interdependent in almost all 
ecosystems. Ground water plays significant roles in sustaining the 
flow, chemistry, and temperature of streams, lakes, springs, wetlands, 
and cave systems on the Goshute Indian Reservation and adjacent 
adjoining valleys. Surface waters provide recharge to ground water. 
Ground water has a major influence on rock weathering, streambank 
erosion, and the headward progression of stream channels. In rough 
steep terrain, it governs slope stability; in flat terrain, it limits 
soil compaction and land subsidence.
    Large volume of ground water pumping will reduce or eliminate 
discharges to springs and to wetlands. It will eliminate the 
sustainability of drinking-water supplies and maintenance of critical 
ground water-dependent habitats.
    Our livelihood and existence on the Goshute Indian Reservation is 
in great jeopardy by the Southern Nevada Water Authority proposed 
project. I don't intend to change who we are or change our tribal 
identity because of the project. The Goshute Tribal land and water is 
directly tied to the tribal identity and to our spiritual way of life. 
I want to remind you that our Tribal sovereignty does not arise from 
our treaty with the government but from our unique relationship with 
Mother Earth.
    Thank you for listening to my concerns.
                                 ______
                                 
Statement of Rose Strickland and Susan Lynn, Great Basin Water Network, 
                                Reno, NV
    On behalf of the Great Basin Water Network, we are submitting 
testimony for the record on the October 11, 2007 field hearing in Las 
Vegas. The GBWN is an umbrella organization for groups and individuals 
committed to careful assessment of water projects and their 
environmental, social and economic consequences. Our mission is to 
protect locally sustainable water uses, natural resources and the 
public interest through coordination, communication, education, 
research, science, litigation and advocacy for water in the extended 
Great Basin.
    We thank you for holding a hearing in Nevada on threats to the 
Great Basin in the next 100 years. We agree with the testimony of many 
of the witnesses about the threats of worsening noxious weed invasions, 
increasing wildfires in the Great Basin and Mojave deserts, longer and 
more frequent droughts which are being exacerbated by climate change, 
and the resulting negative impacts to the health of public rangelands 
and fragile desert ecosystems.
    The GBWN would like to bring to your attention the eminent threat 
of massive interbasin water pumping and exportation proposals in Nevada 
and neighboring states and their potential harmful environmental and 
socioeconomic impacts on our rural and urban communities. In Nevada, 
the Southern Nevada Water Authority, water speculators, and developers 
are proposing to pump and move hundreds of thousands of acre feet of 
water each year from rural Nevada to support growth and development in 
urban areas. These massive water projects will result in the loss of 
native vegetation as groundwater tables drop and native plants are 
replaced by weeds or remain barren and subject to dustbowl conditions 
which are still plaguing Owens Valley in eastern California. Local 
economies based on livestock grazing, hunting and fishing and tourism 
will be adversely affected by the loss of ecosystem health. (See 
Gambling on the Water Table: The High-Stakes Implications of the Las 
Vegas Pipeline For Plants, Animals, Places and People 
www.defenders.org). Surface waters may also be impacted by groundwater 
development projects (See Gone to the Well Once Too Often: The 
Importance of Ground Water To Rivers in the West www.tu.org). 
Scientific knowledge is lacking on both groundwater availability and 
the extent of pumping impacts, although the dangers of such projects to 
fragile desert ecosystems is well-known (See attached BIOSCIENCE 
article).
    Plants are not considered a beneficial use under Nevada Water Law 
and have no state protection. Federal environmental protection laws do 
not extend to ecosystem health. Federal land and resource management 
agencies, including the Bureau of Land Management, the US Forest 
Service, the National Park Service, the Bureau of Indian Affairs, and 
the US Fish and Wildlife Service have neither the direct mandate nor 
the staff and resources to protect public resources from the impacts of 
massive water transfers proposed in the Great Basin. In fact, the 
federal agencies have been under Department of Interior direction to 
settle their water protests of these transfer applications through 
``stipulated agreements'' with water purveyors instead of participating 
in State Engineer water hearings to defend public resources. The 
meetings to develop these agreements are confidential and exclude any 
public input.
    We see the following threats and offer solutions for Congressional 
consideration:

          1. THREAT: Global warming is already exacerbating droughts 
        and resulting in water shortages in the West. Groundwater is 
        not available on a sustainable basis for massive interbasin 
        water projects, like the one proposed by the Southern Nevada 
        Water Authority. Yet, SNWA is not seriously developing water 
        supply options, including increasing water conservation or 
        acquiring additional Colorado River supplies, nor pursuing 
        desalination nor recycling of used water. SOLUTION: The US 
        Congress should require the 7 Colorado River states to meet 
        standards for water conservation and efficiency and to develop 
        a basin-wide water management plan with built-in environmental 
        protection and mitigation.
          2. THREAT: The Nevada groundwater development projects may 
        have direct serious negative environmental impacts in many 
        other western states, including Utah, Arizona, and California. 
        SOLUTION: The US Congress should require states to develop 
        compacts on shared groundwater, including protection of 
        environmental resources and community health through a full and 
        open public process before ratification by Congress.
          3. THREAT: There is insufficient scientific information on 
        Western groundwater and on the environmental impacts of 
        groundwater development and transfer. SOLUTION: The US Congress 
        should mandate and fund scientific studies by the USGS on 
        groundwater systems shared by states and the potential 
        environmental and other impacts of groundwater development and 
        transfer.
          4. THREAT: Federal land and resource agencies do not have 
        sufficient budget or resources to protect public resources from 
        the impacts of groundwater projects. SOLUTION: The US Congress 
        should require federal agencies to diligently protect public 
        lands and resources from the impacts of groundwater projects 
        and provide adequate funding to carry out agency missions.

    Thank you for considering our testimony.
                                 ______
                                 
      Statement of Meghan Wereley, Nevada Cattlemen's Association,
                    grazing is part of the solution
    The Nevada Cattlemen's Association is a member organization 
dedicated to the preservation of ranches and rangelands in Nevada. The 
association supports and represents ecological and environmentally 
sustainable ranchers that operate on both private and public lands. As 
an association we seek to create a stable business climate for our 
members in which they can run these viable operations.
    Over the past several years fire has played a large role in Nevada, 
largely in the Great Basin ecosystem. The State of Nevada can be a 
harsh environment for those who work the land. Cattlemen are 
susceptible to wildfire on public and private grazing lands. When fire 
moves through rangelands across the west vegetation communities change 
from shrub dominated, to annual cheatgrass dominated landscapes. Not 
only do the vegetation communities change, but the fire cycle 
increases, habitat for wildlife is decreased, and forage for both 
domestic livestock and wildlife is greatly reduced throughout the year.
    Reducing fuels before the fire season using prescriptive grazing, 
brush thinning, green strips, and spring grazing on already cheatgrass 
dominated areas will help reduce the catastrophic fires that have moved 
through Nevada over the past few summers.
    Fire not only hurts the rancher during the fire, but for the years 
after when the federal land is closed off. The recognition of the role 
that fire plays in the lives of rural Nevadans has been greatly 
overlooked and the association feels its time for that to change. The 
Nevada Cattlemen's Association will continue to support pre-fire 
management by ranchers and the federal land agencies as nothing 
prevents wildland fires.
    The Nevada Cattlemen's Association supports the rehab efforts on 
burned landscapes as they directly effect soil stabilization, habitat/
forage for wildlife, and forage for livestock. However there are 
several indirect impacts that seeded rehab efforts have on the 
landscape including: increased litter and organic component of the soil 
surface, competition with cheatgrass and/or other invasive species, 
seeded bunch grasses help to slow down fires as the interspaces between 
the plants break continuity of the fuel, and may help the plant 
communities move from annual to perennial grass species eventually 
leading to a shrub component on the site.
    The Nevada Cattlemen's Association supports the reseeding of both 
native and non-native grass species. The association supports non-
native grass species in rehab seed mix's because they are better able 
to compete with cheatgrass and other invasive species, as well as being 
drought tolerant, and less likely to carry fire. As the seeded species 
reestablish native perennial grasses and shrubs will soon move in 
creating greater diversity. Native species are hard to reseed and 
compete poorly with invasive grasses such as cheatgrass.
    In burned areas the first step should start with stabilization and 
end with success. These rehab efforts are just the first step and are 
implemented for resource reasons only. However, if we let these 
reseeded areas continue to be ungrazed there could be vast negative 
impacts on biodiversity, habitat, and forage.
    The Nevada Cattlemen's Association understands that grazing is not 
the only solution, but part of the overall picture of recovery; and 
that working together to find solutions and implement known science in 
our current land management will not only help recovery but prevent 
catastrophic fires.
                                 ______
                                 
                    University of Nevada Las Vegas,
           Department of Environmental Studies and Biology,
                                                  October 11, 2007.
Hon. Ron Wyden,
Chairman,
Hon. Richard Burr,
304 Dirksen Senate Building, Washington, DC.
    Dear Senators: Most major environmental threats to the Great Basin 
in the 21st century cannot be understood nor addressed without 
recognizing their relationship to groundwater development. In this, the 
driest region of the US, wildlife, invasive species, wildfire, climate 
change, economic development, sustainability, and livelihood of 
residents, are all, to one degree or another, dependent on policies and 
practices governing groundwater development. Because it is a limiting 
resource, water is widely acknowledged to be a major cause of conflict 
worldwide in this century. Nowhere is that more evident than here in 
the desert Southwest.
    Limitations of groundwater resources stimulated the US Geological 
Survey to implement a Regional Aquifer-System Analysis (RASA) Project 
over the last three decades of the 20th century. The Great Basin 
Aquifer in Nevada and Utah constituted a major component of that 
project. That study was followed by another major study required under 
the Lincoln County Land Act--BARCAS (Basin and Range Carbonate Aquifer 
Study). Drawing heavily on the mass of information made available by 
those and related studies, I recently completed a general evaluation of 
the probable environmental consequences of proposed major groundwater 
withdrawals by the Southern Nevada Water Authority and others in 
eastern, central, and southern Nevada (see attached article from 
September 2007 Bioscience).* Figuring prominently in the ``other'' 
category is the Vidler Water Company, the largest corporation in 
America dedicated to converting water rights from agricultural to urban 
uses, and the largest landowner in Nevada.
---------------------------------------------------------------------------
    * Article has been retained in subcommittee files.
---------------------------------------------------------------------------
    What I found was that the SNWA groundwater project, by itself, is 
likely to produce perceptible reductions of the groundwater table 
extending from Death Valley, California to Sevier Lake, Utah. Those 
reductions are likely to exceed 50 feet over an area extending from 
Indian Springs just north of Las Vegas to Baker, Nevada at the base of 
Great Basin National Park, and in some areas could reach 1600 feet. To 
put that in perspective, the groundwater table in this region is known 
to have declined approximately 30 feet over the past 15,000 years as 
glaciers retreated and pluvial lakes in the Great Basin desiccated, 
creating the desert conditions we experience today. A consequence of 
water table declines of this magnitude will be reduction and or 
disappearance of spring discharge, wetland area, and plant communities 
dependent on shallow groundwater tables. Those consequences put in 
jeopardy the continued existence of more than 150 known wetland 
dependent species, including 20 listed as threatened or endangered. 
And, some estimates suggest that we may have only discovered somewhere 
in the neighborhood of 10% of the species actually living in the area.
    Groundwater level declines of that magnitude will also dramatically 
increase the costs of groundwater pumping for everyone living in the 
affected areas of rural Nevada and Utah--rancher, farmer, rural 
resident, and small-town citizen alike. These consequences will also 
significantly diminish recreational opportunities and therefore quality 
of life for people living in metropolitan areas such as Las Vegas, Salt 
Lake City and Reno--recreational opportunities that are now available 
at Great Basin and Death Valley National Parks; Pahranagat, Moapa, 
Desert Game Range, and Ash Meadows National Wildlife Refuges; Wayne 
Kirch, Key Pittman, and Overton State Wildlife Management Areas; Lake 
Mead National Recreation Area, and the innumerable springs, streams, 
and wetland areas presently utilized for recreational purposes on both 
public and private land. These consequences can be expected as a result 
of only the proposed SNWA groundwater project. That proposal at present 
amounts to approximately 10-25% of the quantity of groundwater 
requested from the Nevada State Engineer! It is therefore likely that 
probable impacts mentioned above have been significantly 
underestimated.
    SNWA has suggested that management of the groundwater basin using 
state-of-the-art methods will permit satisfactory mitigation of adverse 
impacts described above. Results of the recent BARCAS study indicating 
higher than expected interbasin groundwater flow, do not support that 
assertion. Because of relatively high interbasin flow, environmentally 
significant portions of a groundwater basin cannot be isolated without 
expenditure of huge quantities of energy to pump water uphill. It's 
unlikely that any society would be willing to undertake that expense 
for an infinite period of time. Without perpetual maintenance, major 
losses of biodiversity are inevitable. Furthermore, the fact that SNWA 
is likely to have control of no more than 25% of the groundwater in the 
area makes it highly unlikely that they will be able to have a 
controlling influence on adverse effects of groundwater pumping.
    SNWA has also suggested that existing federal and state laws and 
regulations are adequate to protect existing rights and environmental 
values. Dry springs in Las Vegas Valley, Pahrump Valley, and many other 
locations around the Southwest demonstrate that historical practice 
does not support their suggestion. University of Wisconsin Professor 
Mary Anderson, in an editorial published in the July/August issue of 
the professional journal, Groundwater, noted that the traditional focus 
of the entire groundwater industry is to develop groundwater resources 
for ``beneficial use by humans'', a purpose that ultimately runs 
counter to efforts directed toward preserving, `` . . . the integrity, 
stability, and beauty of the biotic community.''. Unless the entire 
industry changes that traditional focus, environmental values and the 
rights many people associate with them will not be protected.
    Of course, direct effects of proposed groundwater development 
discussed above, while serious, may be viewed as largely restricted to 
the state of Nevada, and therefore of less direct pertinence to your 
subcommittee's responsibilities. Direct pertinence to the Senate Public 
Lands subcommittee responsibilities is illustrated by the following:

          1. The Lincoln County Land Act required Nevada and Utah to 
        negotiate a mutually acceptable groundwater development 
        agreement. The agreement has not yet been reached, and SNWA 
        has, for now, shifted their focus away from Snake Valley, the 
        area most likely to most quickly affect groundwater resources 
        in Utah.
          2. Proposed groundwater projects in Nevada and Utah, and 
        throughout the United States are a major cause of wildlife 
        decline, loss of biodiversity, and shifts in agricultural 
        production.
          3. The Nevada delegation, and probably members of your 
        committee have already been approached by Las Vegas civic 
        leaders with requests to convert additional public land 
        adjacent to Las Vegas to private uses as a means of 
        accommodating continued growth. That continued growth depends 
        on acquiring additional water resources, a reality that 
        increases pressure for unsustainable use of groundwater 
        resources.
          4. Groundwater is needed to provide cooling water for 
        proposed coal-fired power plants near Ely, Nevada. Substantial 
        quantities of electricity will be required to lift groundwater 
        to the surface and pump it to Las Vegas. The power plants, if 
        built will make substantial contributions to atmospheric 
        CO<INF>2</INF> in a state with the greatest potential in the US 
        for development of solar and geothermal energy, and major wind 
        energy potential.
          5. Changes to plant communities caused by declining 
        groundwater tables increase the probability of invasion by 
        cheatgrass and other exotics, which in turn increase the 
        frequency and intensity of wildfire.

    These considerations lead me to recommend the following:

          1. Release of additional federal land near Las Vegas should 
        be conditioned upon a demonstration that water resources to 
        support growth on that land will not deplete groundwater 
        resources or biodiversity, nor add carbon dioxide to the 
        atmosphere.
          2. Any legislation associated with changes in public land use 
        in the Great Basin must require identification of sustainable 
        water supplies that will not deplete groundwater resources, 
        spring discharge, wetland area, or alter plant communities 
        dependent on relatively shallow groundwater tables. It must 
        also ensure carbon neutrality.
          3. Increased funding for USGS studies to model effects of 
        proposed groundwater development is needed. It should be 
        considered a required information source prior to transfer of 
        any federal land to private uses.
          4. Congress should fund a groundwater modeling study of the 
        deep carbonate aquifer in Utah and Nevada as a means of 
        evaluating the environmental consequences of development 
        associated with proposed changes to the Clark County, Lincoln 
        County, and White Pine County Land Acts.
            Sincerely yours,
                                           James E. Deacon,
                                  Emeritus Distinguished Professor.
                                 ______
                                 
 Statement of Kyle Davis, Policy Director, Nevada Conservation League, 
                             Las Vegas, NV
    The Nevada Conservation League is a Nevada 501 C4 charitable 
organization. Our organization's mission is to help protect Nevada's 
land, air and fragile water supplies through public education and 
advocacy within government at all levels. On behalf of our membership 
and citizens of Nevada concerned about the threat of global climate 
change, we feel it is important to highlight the anticipated impacts on 
Nevada.
    Global warming is one of the most important issues facing the State 
of Nevada. As set forth in the IPCC Fourth Assessment Report, 
scientists are in near universal agreement that our planet is warming 
and that this warming is caused by human activities that release 
greenhouse gases into the atmosphere. The consequences of doing nothing 
about this problem are significant, and we are already seeing some of 
the impacts here in our state. Most of the scientific models predict 
that even if we can keep our greenhouse gas emissions at current 
levels, our state faces the strong likelihood of increased drought and 
wildfires. As you are no doubt aware, our state has just endured a very 
costly and damaging wildfire season, and the problem will only get 
worse.
    Nevadans are also dealing with the impacts of drought on our 
fragile water supplies. Our state is the driest state in the country, 
and global warming will only exacerbate this. According to the Natural 
Resources Defense Council, the impact will be most pronounced in a 
decrease of water throughout the Great Basin as well as decreased 
stream flows on most of Nevada's rivers, including the Colorado and 
Truckee Rivers. Both of these rivers are essential to the livelihoods 
of our most populated communities, making climate change not only an 
environmental concern, but a threat to our population. A shorter 
winter, characterized by more precipitation falling as rain rather than 
snow, will lead to drier conditions earlier in our forests and a 
lengthening fire season. The anticipated impacts of both longer 
droughts and increased wildfires will be devastating to our ecosystems 
throughout the great basin. Many of Nevada's residents in Eastern 
Nevada can attest to the drop in water tables, causing a substantial 
decrease in wildlife populations.
    Keep in mind; these are the likely impacts if we curb our emissions 
today. Unfortunately, there are plans on the table to increase our 
emissions through the construction of three coal fired power plants. 
Burning coal accounts for 40% of the United States' output of carbon 
dioxide. Needless to say, if we are to build more coal-fired power 
plants, the consequences from global warming would be much worse. In 
fact, estimates from BLM documents put the carbon dioxide emission of 
these three plants at over 48 million tons of carbon dioxide a year. 
For comparison, this number would be more than could be saved by each 
household in America replacing two 60 watt bulbs with a compact 
fluorescent, or by planting four million trees!
    If we do increase carbon dioxide emissions, the results could be 
disastrous. According to the California Climate Change Center, winter 
snowpack could be reduced by 70-90 percent, and wildfire activity could 
increase by 55 percent if greenhouse gas emissions continue at their 
current pace. This would render much of Nevada unlivable, as we rely on 
mountain snowpack and runoff to provide our water supply, not just for 
municipal use, but for agriculture as well. In addition to this, the 
National Academy of Sciences estimates that if current emissions 
continue, we can expect to see an average temperature increase between 
six and ten degrees Fahrenheit by the end of the century. Currently, 
the average summertime high temperature in Las Vegas is 102 degrees. 
What effect would an increase to 108-112 degrees have on our tourism-
based economy, not to mention the quality of life of our residents?
    Clearly, climate change is a clear threat, and Nevadans are already 
seeing the impacts right now. We have experienced a very warm summer in 
both Northern and Southern Nevada, and last year, both of our major 
cities were among the top cities in increase in summer temperature 
lows. Our fire season has been long and intense, with the Angora and 
Hawken fires threatening our neighborhoods and cities.
    The time for action is now. We cannot continue to hide behind 
excuses and obfuscations of the facts. Global warming is a real 
problem; the scientific community is united on this. The impacts of 
global warming are likely to hit Nevada harder than many other states. 
This is the most pressing environmental issue facing our state, and we 
need to take swift action at both the state and national level to 
reverse the effects of climate change so that we can preserve our 
quality of life, and preserve our state for our children and 
grandchildren.
                                 ______
                                 
 Statement of Mark Salvo, Director, and Andy Kerr, Advisor, Sagebrush 
                              Sea Campaign
                    conclusions and recommendations
          1. The Great Basin is a desert. Drying periods (``droughts'') 
        are common in the Great Basin.
          2. A primary cause of excessive wildfires in the Great Basin 
        is the spread of flammable, nonnative cheatgrass (Bromus 
        tectorum). A primary cause of cheatgrass invasion is domestic 
        livestock grazing.
          3. Climate change, continued livestock grazing and the 
        presence of nonnative weeds will complicate restoration of 
        native ecosystems and watersheds in the Great Basin.
          4. Federal agencies and programs fail to consider what is 
        known about the relationship of livestock grazing to cheatgrass 
        invasion, the cheatgrass-fire cycle, and implications for 
        native restoration of cheatgrass-infested ecosystems in the 
        Great Basin.
          5. Great Basin rangelands should be restored to provide 
        habitat for sage-grouse, pronghorn, mule deer and other 
        wildlife; clean and plentiful water for Great Basin 
        communities; and quality recreational opportunities for 
        Americans.
          6. Rangelands restored with native species and ungrazed by 
        livestock will be more resistant and resilient to climate 
        change than degraded lands.
          7. The Federal government should:

                  a. Require Federal land management agencies to 
                develop and implement comprehensive plans to halt the 
                spread of cheatgrass and conserve and restore native 
                ecosystems and watersheds on Federal public lands.
                  b. Prohibit the use of non-native plants/seeds for 
                restoration and require the use of locally adapted 
                native shrubs, wildflowers and grasses/seeds for 
                restoration on Federal public lands.
                  c. Discontinue livestock grazing on Federal public 
                lands to eliminate a primary cause of weed invasion and 
                increase the success of ecological and hydrological 
                restoration programs for sagebrush steppe.

                ``drought'' is common in the great basin
    The Great Basin is historically prone to droughts. At least six 
multi-year droughts have been recorded in the Great Basin: 1896-1905, 
1930-1936, 1953-1965, 1974-1978, 1988-1993, and 1999-2004.\1\ Although 
climate change may be contributing to recent droughts in the region, 
droughts are ``a normal part of natural climate variations.''\2\ 
Droughts are ``merely temporary abnormalities determined by deficient 
precipitation.''\3\
---------------------------------------------------------------------------
    \1\ Bureau of Reclamation. ``Drought in the West: Great Basin'' 
(webpage). U.S. Dept. Interior, Bureau of Reclamation. (www.usbr.gov/
uc/feature/great--basin.html; viewed Oct. 7, 2007).
    \2\ Bureau of Reclamation. ``Drought in the West: Upper Colorado 
River Basin'' (webpage). U.S. Dept. Interior, Bureau of Reclamation. 
(www.usbr.gov/uc/feature/drought.html; viewed Oct. 7, 2007).
    \3\ Bureau of Reclamation, ``Upper Colorado River Basin.''
---------------------------------------------------------------------------
                 cheatgrass occurrence and distribution
    Cheatgrass has become the dominant species on 100 million acres--
158,000 square miles--in the Intermountain West.\4\ More than fifty 
percent of sagebrush steppe may be invaded to some extent by 
cheatgrass, with losses projected to accelerate in the future.\5\ 
Cheatgrass is spreading at a rate of 14 percent annually in the United 
States.\6\ A BLM ecologist and program coordinator has warned that 
``[c]heatgrass is changing the West.''\7\
---------------------------------------------------------------------------
    \4\ Rosentreter, R. 1994. Displacement of rare plants by exotic 
grasses. Pages 170-175 in S. B. Monsen and S. G. Kitchen (eds.). 
PROCEEDINGS--ECOLOGY AND MANAGEMENT OF ANNUAL RANGELANDS. Gen. Tech. 
Rep. INT-313. USDA, Forest Service, Intermountain Research Station. 
Ogden, UT: 170 (citing R. Mack. 1981. Invasion of Bromus tectorum L. 
into western North America: an ecological chronicle. Agro-Ecosystems 7: 
145-165).
    \5\ Rowland, M. M. 2004. Effects of management practices on birds: 
Greater Sage-grouse. Northern Prairie Wildlife Research Center. 
Jamestown, ND. Available at Northern Prairie Wildlife Research Center 
Online: www.npwrc.usgs.gov/resource/literatr/grasbird/grsg/grsg.htm 
(ver. 12AUG2004) (citing N. E. West. 1999. Managing for biodiversity of 
rangelands. Pages 101-126 in W. W. Collins and C. O. Qualset (eds.). 
BIODIVERSITY IN AGROECOSYSTEMS. CRC Press. Boca Raton, FL [supporting 
statement that cheatgrass has invaded more than half of the sagebrush 
habitats] and M. A. Hemstrom, M. J. Wisdom, M. M. Rowland, et al. 2002. 
Sagebrush-steppe vegetation dynamics and potential for restoration in 
the interior Columbia Basin, USA. Conservation Biology 16: 1243-1255 
[supporting contention that cheatgrass will continue to spread into 
sagebrush steppe]).
    \6\ Duncan, C. A. et al. 2004. Assessing the economic, 
environmental, and societal losses from invasive plants on rangeland 
and wildlands. Weed Technology (Invasive Weed Symposium) 18(5): 1412, 
Table 1.
    \7\ Miller, J. ``Alien invader clings to socks, stokes West's 
wildfires.'' Daily Herald (Provo, UT) (Aug. 8, 2007).
---------------------------------------------------------------------------
    The Great Basin and Nevada are particularly susceptible to 
cheatgrass incursion. Nearly 80 percent of the Great Basin and 80 
percent of the land area in Nevada are estimated to be susceptible to 
displacement by cheatgrass at low or greater risk.\8\ Sagebrush covers 
approximately 28 percent of the Great Basin, of which nearly 38 percent 
is estimated at moderate risk and nearly 20 percent at high risk of 
invasion by cheatgrass.\9\ Eighty-four percent of Nevada is managed by 
the federal government (primarily by the Bureau of Land Management), 
and federal lands contain nearly 90 percent of the area estimated to be 
at moderate risk of cheatgrass invasion.\10\
---------------------------------------------------------------------------
    \8\ Suring, L. H., M. J. Wisdom, R. J. Tausch, R. F. Miller, M. M. 
Rowland, L. Schueck, C. W. Meinke. 2005. Modeling threats to sagebrush 
and other shrubland communities. Chap. 4 in part II: Regional 
assessment of habitats for species of conservation concern in the Great 
Basin. Pages 114-149 in M. J. Wisdom, M. M. Rowland, L. H. Suring 
(eds.). HABITAT THREATS IN THE SAGEBRUSH ECOSYSTEM: METHODS OF REGIONAL 
ASSESSMENT AND APPLICATIONS IN THE GREAT BASIN. Alliance Communications 
Group. Lawrence, KS: 138.
    \9\ Suring et al. (2005): 138.
    \10\ Suring et al. (2005): 140.
---------------------------------------------------------------------------
                  factors in the spread of cheatgrass
    Cheatgrass thrives in disturbed, and especially burned, areas. 
Cultivation and subsequent land abandonment, livestock grazing, removal 
of native vegetation, and repeated fires can interact, or act singly, 
to proliferate cheatgrass. Cheatgrass can increase fire frequency, 
favoring itself and potentially inhibiting native plants from 
establishing in burned areas. The presence of cheatgrass in sagebrush 
steppe can lead to an eventual conversion of the shrubsteppe community 
to an exotic grassland. In some cases, cheatgrass encourages invasion 
by other exotic species such as knapweed and thistle.\11\ Cheatgrass is 
well adapted to dry (xeric) sites and climate change may favor 
cheatgrass invasion.
---------------------------------------------------------------------------
    \11\ Gucker, C. L. 2007. Bromus tectorum in Fire Effects 
Information System (database). U.S. Dept. Agriculture, Forest Service, 
Rocky Mountain Research Station, Fire Sciences Laboratory. 
(www.fs.fed.us/database/feis; viewed Oct. 7, 2007) (and references 
cited).
---------------------------------------------------------------------------
      livestock grazing is a primary cause of cheatgrass invasion
    The Bureau of Land Management (BLM) administers approximately 
18,000 grazing permits and leases to graze almost 13 million AUMs 
(animal unit months)\12\ on 165 million acres of public lands,\13\ 
primarily in sagebrush steppe. More than 99 percent of remaining 
sagebrush steppe has been affected by livestock and approximately 30 
percent has been heavily grazed.\14\ The BLM grazing program is 
administered by 107 field offices that spend at least $58 million 
annually to manage public lands grazing,\15\ at a loss of at least 
$54.6 million per year to federal taxpayers.\16\
---------------------------------------------------------------------------
    \12\ An animal unit month is a measure of the amount of forage 
necessary to sustain a cow and calf, one horse, or five sheep or goats, 
for one month.
    \13\ BLM. Undated. Bureau of Land Management 2007 Budget 
Justifications. Bureau of Land Management. Washington, DC: I-3; see 
also Government Accountability Office. 2005. Livestock grazing: federal 
expenditures and receipts vary depending on the agency and the purpose 
of the fee charged. GAO-05-869. Government Accountability Office. 
Washington, DC: 15, 76; BLM. 2007. Final Vegetation Treatments on 
Bureau of Land Management Lands in 17 Western States Programatic 
Environmental Report. Bureau of Land Management, Nevada State Office. 
Reno, NV: 4-94. (June 2007) (grazing permitted on 165 million acres of 
BLM lands).
    \14\ West, N. E. 1996. Strategies for maintenance and repair of 
biotic community diversity on rangelands. Chap. 22. Pages 326-346 in R. 
C. Szaro and D. W. Johnston (eds.). BIODIVERSITY IN MANAGED LANDSCAPES. 
THEORY AND PRACTICE. Oxford University Press. New York, NY: 336, 337.
    \15\ Government Accountability Office. 2005. Livestock grazing: 
federal expenditures and receipts vary depending on the agency and the 
purpose of the fee charged. GAO-05-869. Government Accountability 
Office. Washington, DC: 21.
    \16\ GAO (2005): 31.
---------------------------------------------------------------------------
    Livestock spread cheatgrass by:

  <bullet> disturbing the soil (and damaging biological soil crust--a 
        living protective layer that prevents erosion, provides 
        nutrients to plants, and helps prevent establishment of 
        invasive plants);
  <bullet> removing competing native vegetation; and
  <bullet> spreading cheatgrass seeds on their coats and hooves.\17\
---------------------------------------------------------------------------
    \17\ Gucker (2007); E. J. Rawlings, K. K. Hanson, R. L. Sanford, J. 
Belnap. 1997. The striking effects of land use practices and Bromus 
tectorum invasion on phosphorous cycling in a desert ecosystem of the 
Colorado Plateau. Bull. Ecological Soc'y of America 78: 300; A. J. 
Belsky and J. L. Gelbard. 2000. Livestock grazing and weed invasions in 
the arid West. Distributed report. Oregon Natural Desert Association. 
Bend, OR; J. Gelbard. 1999. Multiple scale causes of exotic plant 
invasions in the Colorado Plateau and Great Basin, USA. M.S. thesis. 
Duke University, Nicholas School of the Environment. Durham, NC.

    Furthermore, recent research indicates that nonnative ungulates--
such as domestic livestock--select native plants over nonnative plants, 
giving a competitive advantage to nonnative weeds.\18\
---------------------------------------------------------------------------
    \18\ John D. Parker, J. D., D. E. Burkepile, M. E. Hay. Opposing 
effects of native and exotic herbivores on plant invasions. Science 
311: 1459-1461.
---------------------------------------------------------------------------
    Once cheatgrass is established, it is usually only a matter of time 
before the area burns. Livestock grazing following fire is especially 
damaging to recovery of sagebrush steppe. Livestock will graze and 
trample sagebrush seedlings, emerging grasses and wildflowers, and 
exposed soil on burned sites when they are most risk of invasion by 
cheatgrass and other exotic species. Current research suggests that 
native vegetation in the sagebrush steppe may require ten years or more 
to recover from various management treatments or disturbance (such as 
fire).\19\ However, the BLM usually only prescribes two years of rest 
following fire.
---------------------------------------------------------------------------
    \19\ Monsen, S. B., R. Stevens, N. L. Shaw (compilers). 2004. 
RESTORING WESTERN RANGES AND WILDLANDS (vol. I). Gen. Tech. Rep. RMRS-
GTR-136-Vol. 1. USDA-Forest Service, Rocky Mountain Research Station. 
Fort Collins, CO: 194-198.
---------------------------------------------------------------------------
                  managing for the lords of yesterday
    Wildfires have burned more than 2.4 million acres of sagebrush 
steppe in Idaho, Nevada, and Utah in 2007. The BLM has blamed drought, 
climate change, high temperatures and ``Mother Nature'' for the 
fires.\20\ Cheatgrass is also identified as a major cause of wildfires, 
but never the livestock that help introduce and spread the species. 
Indeed, one BLM state director has even suggested that his agency may 
need to ``re-examine the convention of resting burned allotments for 
two or three years before allowing grazing again,'' claiming that 
``[l]ivestock may need to get back on the ground sooner to keep the 
fire load down.''\21\
---------------------------------------------------------------------------
    \20\ Christensen, M. ``Dangerously dry.'' Times-News (Twin Falls, 
ID) (Aug. 6, 2007).
    \21\ Wilkins, D. ``Summer fires rekindle grazing debate.'' Capital 
Press (July 27, 2007).
---------------------------------------------------------------------------
    The public lands grazing industry has so captured\22\ the process 
of Federal public lands management that livestock grazing is now 
commonly viewed as a solution to weed invasion, rather than a cause. 
Some agency staff have advocated seeding burned areas with nonnative 
forage plants rather than native shrubs, grasses and wild flowers 
because native plants ``don't have a prayer'' against cheatgrass.\23\ 
In fact, native plants don't have a prayer against livestock. Others 
believe that livestock can be used to control cheatgrass, although 
research suggests that prescriptive grazing would have little effect on 
cheatgrass.\24\
---------------------------------------------------------------------------
    \22\ Donahue, D. L. 2005. Western grazing: the capture of grass, 
ground, and government. Environmental Law 35: 721-806.
    \23\ Miller, ``Alien invader clings to socks, stokes West's 
wildfires.''
    \24\ Mayer, K. H. 2004. The effects of defoliation on Bromus 
tectorum seed production and growth. M.S. thesis. Oregon State 
University. Corvallis, OR.
---------------------------------------------------------------------------
    A few simple facts prove that managing public lands for grazing, 
mining and other extractive industries--the ``Lords of 
Yesterday''\25\--supports only a small minority of Americans, and at 
the expense of native flora and fauna, recreational opportunities and 
amenity-based businesses. In Nevada (the state with more federal land 
than any other outside of Alaska), federal public lands grazing 
provides 1,228 jobs.\26\ By comparison, one casino in Las Vegas employs 
37,000 people.\27\ Changing economics, lifestyle choices and retirement 
are contributing to a steady decline in public lands ranching across 
the West.
---------------------------------------------------------------------------
    \25\ The term ``Lords of Yesterday'' refers to historic industries 
and was popularized in C. F. Wilkinson. 1992. CROSSING THE NEXT 
MERIDIAN: LAND, WATER AND THE FUTURE OF THE WEST. Island Press. 
Washington, DC.
    \26\ Power, T. 1996. LOST LANDSCAPES AND FAILED ECONOMIES: THE 
SEARCH FOR A VALUE OF PLACE. Island Press. Washington, DC: 184 (table 
8-2).
    \27\ Greenhouse, S. ``Behind Las Vegas's glitter, heavy losses and 
layoffs.'' New York Times (Oct. 19, 2001).
---------------------------------------------------------------------------
    The mining industry, despite its omnipresence in the state, also 
employs relatively few Nevadans--approximately 14,000.\28\ By 
comparison, the gaming industry employs more than 215,000 people in 
Nevada and generated $12.6 billion in revenue in 2006.\29\
---------------------------------------------------------------------------
    \28\ Dilanian, K. ``Royalty-free mining days may be near end.'' USA 
Today (Oct. 1, 2007): 12A.
    \29\ American Gaming Association. ``Industry Information/State 
Information: Statistics--Nevada'' (webpage) (www.americangaming.org/
Industry/state/statistics.cfm?stateid=9; visited October 1, 2007).
---------------------------------------------------------------------------
    Extractive industries are giving way to professional, service and 
amenity-based economies in the West.\30\ Management of Federal public 
lands should support this transition.
---------------------------------------------------------------------------
    \30\ Sonoran Institute. 2006. You've Come a Long Way, Cowboy: Ten 
Truths and Trends in the New American West. Sonoran Institute. Tucson, 
AZ. (www.sonoran.org/cowboy).
---------------------------------------------------------------------------
                             climate change
    Climate change is occurring in the Great Basin and may adversely 
affect native vegetation and restoration efforts. Atmospheric 
CO<INF>2</INF> has increased approximately 20 percent during the past 
century.\31\ Average temperature has increased 0.6-1.1 F in the last 
100 years in the Great Basin.\32\ Climate change is projected to cause 
temperatures to continue to increase in the Great Basin by 3-4 F in 
spring and autumn, and by 5-6 F in winter and summer, by 2100.\33\ One 
study estimated that as much as 80 percent of remaining sagebrush 
steppe in the West could be lost to the direct or indirect effects of 
global warming.\34\
---------------------------------------------------------------------------
    \31\ West, N. E. 2000. Synecology and disturbance regimes of 
sagebrush steppe ecosystems. Pages 15-26 in P. G. Entwistle, A. M. 
Debolt, J. H. Kaltenecker, K. Steenhof (compilers). Proc. Sagebrush 
Steppe Ecosystems Symposium; June 21-23, 1999; Boise State University, 
Boise, ID. Publ. no. BLM/ID/PT-0001001+1150. Bureau of Land Management. 
Boise, ID: 16.
    \32\ Pellant, M., Great Basin Restoration Initiative Coordinator, 
Bureau of Land Management. Statement before the House Appropriations 
Subcommittee on Interior, Environment and Related Agencies, regarding 
Climate Change. (Apr. 26, 2007) (copy on file with the Sagebrush Sea 
Campaign).
    \33\ Pellant, M., Great Basin Restoration Initiative Coordinator, 
Bureau of Land Management. Statement before the House Appropriations 
Subcommittee on Interior, Environment and Related Agencies, regarding 
Climate Change. (Apr. 26, 2007) (citing data from the Intergovernmental 
Panel on Climate Change and the Hadley Centre, United Kingdom) (copy on 
file with the Sagebrush Sea Campaign).
    \34\ Neilson, R. P., J. M. Lenihan, D. Bachelet, R. J. Drapek. 
2005. Climate change implications for sagebrush ecosystems. Trans. N. 
Amer. Wildl. & Nat. Res. Conf. 70: 145-159 (as cited in M. J. Wisdom, 
M. M. Rowland, R. J. Tausch. 2005. Effective management strategies for 
sage-grouse and sagebrush: a question of triage? Trans. N. Amer. Wildl. 
& Nat. Res. Conf. 70: 206). See also R. S. Thompson, S. E. Hostetler, 
P. J. Bartlein, K. H. Anderson. 1998. A Strategy for Assessing 
Potential Future Changes in Climate, Hydrology, and Vegetation in the 
Western United States. USGS Circular 1153. Government Printing Office. 
Washington, DC: 14 (available at pubs.usgs.gov/circ/1998/c1153/
c1153.pdf; viewed Apr. 17, 2007) (the range of big sagebrush [Artemisia 
tridentata] is estimated to decline by 59 percent if atmospheric 
CO<INF>2</INF> is doubled from current levels).
---------------------------------------------------------------------------
    Measures should be implemented immediately to conserve and restore 
sagebrush steppe in preparation for further climate change and 
concurrently take steps to adequately reduce greenhouse gas emissions 
to limit the estimated increase in temperature.
               recommendations for the federal government
    Biological invasions, especially invasion by exotic weeds, are 
consistently cited as among the most important challenges to 
maintenance of healthy sagebrush communities.\35\ The Federal 
government must acknowledge scientific evidence of the contributions of 
livestock grazing to cheatgrass invasion and resulting unnatural fires 
and develop strategies to reduce inappropriate grazing on Federal 
public lands. Current Federal management initiatives, such as the BLM 
17-state Final Vegetation Treatments Using Herbicides Programmatic 
Environmental Impact Statement/Programmatic Environmental Report (the 
Record of Decision was just released on Friday, October 5),\36\ that do 
not address the effects of livestock grazing on native vegetation and 
weed invasion, have no hope of solving the cheatgrass problem. 
Similarly, federally funded research projects such as the $13 million 
``SageSTEP'' that purports to study ways to end the cheatgrass-fire 
cycle--without addressing the contributions of livestock grazing to 
cheatgrass invasion--are a waste of taxpayer funds.\37\
---------------------------------------------------------------------------
    \35\ Suring et al. (2005): 114 and citations.
    \36\ 72 Fed. Reg. 57065 (Oct. 5, 2007).
    \37\ SageSTEP: Sagebrush Steppe Treatment Evaluation Project, 
(www.sagestep.org).
---------------------------------------------------------------------------
    Successful ecological and hydrological restoration in the Great 
Basin will require that livestock grazing either be eliminated or 
significantly reduced on Federal public lands. The cheatgrass-fire 
cycle will not be broken unless the driver of livestock grazing is 
removed. Ending or reducing livestock grazing on Federal public lands, 
while beneficial for the land, water and wildlife, will have 
consequences for Federal grazing permittees. There is an ecologically 
imperative, economically rational, fiscally prudent, socially just and 
politically pragmatic solution to resolve grazing conflicts and also 
provide for ranchers: voluntary federal grazing permit buyout. A recent 
survey indicates that approximately half of public lands ranchers in 
Nevada may be interested in retiring their grazing permits at the price 
of $255 per animal unit month (AUM; the amount of forage necessary to 
sustain one cow and calf for one month).\38\ If the price were $300/
AUM, even more ranchers would be interested in voluntary permit 
buyout.\39\ Given the amount of subsidies the Federal government 
annually pays to sustain public lands ranching, compensating grazing 
permittees to voluntarily end their grazing on public lands would be a 
good deal for taxpayers, ranchers and the environment.
---------------------------------------------------------------------------
    \38\ van Kooten, G. C., R. W. Thomsen, T. Hobby. 2006. Resolving 
range conflict in Nevada? Buyouts and other compensation alternatives. 
Rev. Agric. Econ. 28(4): 515-530.
    \39\ The Cascade-Siskiyou National Monument Voluntary and Equitable 
Grazing Conflict Resolution Act (S. 3858, 109th Congress), is 
cosponsored by Senators Ron Wyden (D-OR) and Gordon Smith (R-OR). The 
bill is expected to be reintroduced into the 110th Congress. The 
legislation would pay affected grazing lessees $300/AUM to retire their 
grazing permits. Nearly all affected lessees are expected to accept the 
offer.
---------------------------------------------------------------------------
                               conclusion
    The presence of cheatgrass in sagebrush habitats has contributed to 
larger, more intense and more frequent wildfires than what naturally 
occurred. Domestic livestock aid and abet cheatgrass invasion by 
disturbing the soil, removing competing native vegetation, and 
spreading cheatgrass seed on their coats and hooves. Federal agencies 
will fail to halt the cheatgrass invasion and resultant, excessive 
wildfires in sagebrush steppe unless and until the effects of livestock 
grazing are acknowledged and addressed in restoration planning.
                    about the sagebrush sea campaign
    The Sagebrush Sea Campaign (www.sagebrushsea.org) focuses public 
attention and conservation resources on protecting and restoring the 
vast sagebrush-steppe landscape in the American West. The campaign 
participates in public lands management planning, advocates for natural 
resource protection, and uses education, research, legislation and 
litigation to conserve and restore the Sagebrush Sea for present and 
future generations. The Sagebrush Sea Campaign is a project of Forest 
Guardians.
                                 ______
                                 
Statement of Terry Marasco, Silver Jack Inn & LectroLux Cafe, Baker, NV
    A greater threat than exotic vegetation to the Great Basin is water 
mining such as is planned by the Southern Nevada Water Authority. 
Removing water without replacement threatens a large variety of plant 
and animal species, local economies (tourism, hunting, fishing, outdoor 
recreation, farming, ranching).
    The body of science, though not complete, points to widespread and 
devastating effects of groundwater mining in already fragile and 
drought prone environments. I submit the following to be included in 
this comment:

          1. ``Fueling Population Growth in Las Vegas: How Large-scale 
        Groundwater Withdrawal Could Burn Regional Biodiversity `` 
        JAMES E. DEACON, AUSTIN E. WILLIAMS, CINDY DEACON WILLIAMS, AND 
        JACK E. WILLIAMS, 688 BioScience, September 2007 / Vol. 57 No. 
        8 www.biosciencemag.org
          2. ``Effects Of Interbasin Water Transport on Ecosystems Of 
        Spring Valley, White Pine County, Nevada'', 24 June 2006, David 
        Charlet, Ph.D. Professor of Biology, Community College Southern 
        Nevada, Henderson NV 89015.
          3. ``Gambling on the Water Table, The High-Stakes 
        Implications of the Las Vegas Pipeline For Plants, Animals, 
        Places and People'', Defenders of Wildlife & The Great Basin 
        Water Network, October, 2007.
          4. ``BARCASSI: Basin and Range Carbonate Aquifer System 
        Study'', USGS, June, 2007. Of particular note here iws the new 
        findings regarding the inter-connectivity of basins suggesting 
        that extracting groundwater from an aquifer upstream will 
        affect those basins downstream. The multiple effects of pumping 
        will affect negatively large areas of the Great Basin.

    I also submit this letter noting statements by Senator Harry Reid 
into the record:

          Dear Mr. Smith:

          Saturday, July 2 Senator Harry Reid met with me and 6 other 
        representatives of the Snake Valley Citizens Alliance (a group 
        of rural Nevadans opposed to the pipeline project) in Baker. He 
        stated strongly that he would not have as his legacy the 
        destruction of White Pine County by impacts from the proposed 
        Southern Nevada Water Authority's groundwater pipeline project. 
        With a stronger wording he stated; ``I will not see the rape of 
        rural Nevada.''
          Senator Reid strongly opposed the pipeline from Honey Lake to 
        Reno. In 1994 he stated that it would be ``environmentally bad, 
        too costly, and will provide too little water'' and ``the 
        project is a hoax and a sham'', and a ``wistful boondoggle''.
          In a news release on the project, Sen. Reid stated: ``My goal 
        was to stop the waste of taxpayer's dollars and prevent 
        needless environmental degradation''. These comments are 
        appropriate today for the Clark, Lincoln and White Pine 
        Counties project.
          Walker Lake provides another example of Reid's efforts to 
        conserve water resources and Nevada's recreation and tourism 
        sites by introducing the $200 Million Farm Bill.
          What we rural Nevadans need to do is to keep Senator Reid 
        informed of potentially disastrous impacts as they are made 
        more clear, and bring to the table less impactful solutions to 
        southern NV's water problems (desalination now technically and 
        financially doable, and stringent conservation). For example we 
        mentioned San Antonio, TX as a fine model of strict 
        conservation.
          We are moved by the Senator's words and all rural Nevadans 
        need to watch the Senator from Searchlight's actions as the 
        dangers of this project become clearer. We need him on our 
        side.''

    In conclusion, the Committee must responsibly review all threats to 
the Great Basin.
                                 ______
                                 
     Statement of Katie Fite, Western Watersheds Project, Boise, ID
    Please enter this as Testimony on the SNWA Ground Water Pumping 
Scheme Much of the Great Basin has undergone a significant degree of 
desertification due to livestock grazing impacts, removal of native 
vegetation in efforts to promote livestock forage, and other 
activities. Streams, springs, and springbrooks have been turned into 
dry gullies or trickles as a result of chronic grazing and trampling 
impacts.
    Now, Global warming is exacerbating droughts and accelerating 
desertification processes.
    Groundwater in the Great Basin and interior West is not available 
on a sustainable basis for massive interbasin water projects, like the 
Las Vegas water grab.
    SNWA is engaging in Water Mining. It is not seriously developing 
alternative water supply options, including increasing water 
conservation or acquiring additional Colorado River supplies, nor 
pursuing desalination.
    The US Congress should require the 7 Colorado River states to meet 
standards for water conservation and efficiency. A basin-wide water 
management plan with built-in environmental protection and mitigation, 
including retirement of federal lands grazing permits, should be put 
into place.
    The U.S. Congress should also fund retirement of federal grazing 
permits on a willing seller basis as part of an effort to conserve 
scarce water suppiies in the Great Basin.
    Under no circumstances should SNWA engage in public lands grazing--
as is currently occurring and/or planned with permits it has acquired 
in this water grab. All federal land grazing permits acquired by SNWA 
should be immediately retired.
    The Nevada water grab may have direct serious negative 
environmental impacts in many other western states, including Utah, 
Arizona, and California. On top of this, the effects of ground water 
depletion for coal-fired power plants, cyanide heap leach mining, and 
other activities may extend the impacts north into Idaho as well.
    Proposals in the works to develop new utility orridors/rights-of-
way in the Great Basin may also serve to extend pathways for pipeline 
corridors further outward as well.
    The US Congress should require states to develop compacts on shared 
groundwater, including protection of environmental resources and 
community health through a full and open public process before 
ratification by Congress.
    There is insufficient scientific information on Western groundwater 
and on the environmental impacts of groundwater development and 
transfer. The US Congress should mandate and fund scientific studies by 
the USGS on groundwater systems shared by states and the potential 
environmental and other impacts of groundwater development and 
transfer.

                                    

      

</pre></body></html>
